<html>
<title> - FEMA'S PRIORITIES FOR 2020 AND BEYOND: COORDINATING MISSION AND VISION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]









 FEMA'S PRIORITIES FOR 2020 AND BEYOND: COORDINATING MISSION AND VISION

=======================================================================

                                (116-59)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation 
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
42-964 PDF               WASHINGTON : 2021
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania
                                ------                                

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

     DINA TITUS, Nevada, Chair
JOHN KATKO, New York                 DEBBIE MUCARSEL-POWELL, Florida
MARK MEADOWS, North Carolina         SHARICE DAVIDS, Kansas
GARY J. PALMER, Alabama              ELEANOR HOLMES NORTON,
JENNIFFER GONZALEZ-COLON,              District of Columbia
  Puerto Rico                        HENRY C. ``HANK'' JOHNSON, Jr., 
CAROL D. MILLER, West Virginia       Georgia
GREG PENCE, Indiana                  JOHN GARAMENDI, California
SAM GRAVES, Missouri (Ex Officio)    ANTHONY G. BROWN, Maryland
                                     LIZZIE FLETCHER, Texas, Vice Chair
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)
























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Dina Titus, a Representative in Congress from the State of 
  Nevada, and Chairwoman, Subcommittee on Economic Development, 
  Public Buildings, and Emergency Management:

    Opening statement 



    Prepared statement...........................................     3
Hon. David N. Cicilline, a Representative in Congress from the 
  State of Rhode Island, opening statement.......................     1
Hon. John Katko, a Representative in Congress from the State of 
  New York, and Ranking Member, Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management:

    Opening statement............................................     4
    Prepared statement...........................................     6
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     6
    Prepared statement...........................................     7
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     8
    Prepared statement...........................................     9

                                WITNESS

Hon. Peter T. Gaynor, Administrator, Federal Emergency Management 
  Agency (FEMA), U.S. Department of Homeland Security:

    Oral statement...............................................    10
    Prepared statement...........................................    12

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             March 6, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      Members, Subcommittee on Economic Development, 
Public Buildings, and Emergency Management
    FROM:  Staff, Subcommittee on Economic Development, Public 
Buildings, and Emergency Management
    RE:      Subcommittee hearing on ``FEMA's Priorities for 
2020 and Beyond: Coordinating Mission and Vision''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management will meet on Wednesday, March 11, 
2020, at 10:00 a.m. in 2167 Rayburn House Office Building, to 
receive testimony on ``FEMA's Priorities for 2020 and Beyond: 
Coordinating Mission and Vision'' from Federal Emergency 
Management Agency (FEMA) Administrator Peter T. Gaynor.
    With the January confirmation of Admin. Gaynor, FEMA once 
again has a non-interim leader. With his confirmation, the 
February release of the President's FY21 budget request, the 
release of a revised Publication One in November 2019, an 
updated and streamlined Strategic Plan in March 2018, and 
continuing demand for Federal disaster assistance resulting 
from significant disaster activity across the Nation in recent 
years, the Subcommittee looks forward to receiving the 
Administrator's testimony.
    As recent hearings have illustrated, the Federal 
government's disaster recovery programs and personnel continue 
to be under pressure to work to help communities recover from 
several of the costliest natural disasters in the Nation's 
history.\1\
---------------------------------------------------------------------------
    \1\ See An Assessment of Federal Recovery Efforts from Recent 
Disasters. Hearing before the Subcommittee on Economic Development, 
Public Buildings, and Emergency Management. 116th Congress, October 22, 
2019. See also Disaster Preparedness: DRRA Implementation and FEMA 
Readiness. 116th Congress, May 22, 2019.
---------------------------------------------------------------------------

                               BACKGROUND

FEMA'S PRIORITIES AND FOCUS_2018-2022

    In March 2018, FEMA simplified its mission statement and 
released its Strategic Plan for 2018-2022.\2\ The new mission 
statement is ``FEMA's mission is helping people before, during, 
and after disasters.'' \3\ The 2018-2022 edition of the 
strategic plan streamlined the five priorities and 16 
objectives from the previous edition (2014-2018) to three goals 
and 12 objectives: \4\
---------------------------------------------------------------------------
    \2\ FEMA 2018-2022 Strategic Plan. Available at https://
www.fema.gov/media-library-data/1533052524696-
b5137201a4614ade5e0129ef01cbf661/strat_plan.pdf.
    \3\ Id at 6.
    \4\ Id at 11.
---------------------------------------------------------------------------
    Goal 1) LBuild a Culture of Preparedness
      Objective 1.1) LIncentivize Investments that Reduce Risk, 
Including Pre-disaster Mitigation, and Reduce Disaster Costs at 
All Levels
      Objective 1.2) LClose the Insurance Gap
      Objective 1.3) LHelp People Prepare for Disasters
      Objective 1.4) LBetter Learn from Past Disasters, Improve 
Continuously, and Innovate

    Goal 2) LReady the Nation for Catastrophic Disasters
      Objective 2.1) LOrganize the ``BEST'' (Build, Empower, 
Sustain, and Train) Scalable and Capable Incident Workforce
      Objective 2.2) LEnhance Intergovernmental Coordination 
through FEMA Integration Teams
      Objective 2.3) LPosture FEMA and the Whole Community to 
Provide Life-Saving and Life-Sustaining Commodities, Equipment, 
and Personnel from all Available Sources
      Objective 2.4) LImprove Continuity and Resilient 
Communications Capabilities

    Goal 3) LReduce the Complexity of FEMA
      Objective 3.1) LStreamline the Disaster Survivor and 
Grantee Experience
      Objective 3.2) LMature the National Disaster Recovery 
Framework
      Objective 3.3) LDevelop Innovative Systems and Business 
Processes that Enable FEMA's Employees to Rapidly and 
Effectively Deliver the Agency's Mission
      Objective 3.4) LStrengthen Grants Management, Increase 
Transparency, and Improve Data Analytics

    This strategic plan was developed in the wake of some of 
the costliest and most devastating natural disasters FEMA has 
worked to respond to since being established in 1979.\5\ The 
current plan reflects lessons learned and accomplishments from 
the prior plan. However, some external stakeholders expressed 
dissatisfaction with the level of engagement and input from 
whole community partners in the development of the current 
plan.\6\
---------------------------------------------------------------------------
    \5\ Id at 8.
    \6\ https://adapt.org/press-release-demands-fema-to-cancel-
strategic-planning-meeting/. See also https://www.npr.org/sections/
thetwo-way/2018/03/15/594140026/fema-drops-climate-change-from-its-
strategic-plan.
---------------------------------------------------------------------------
    In addition to the updated Strategic Plan, FEMA more 
recently released a revamped Publication One (Pub 1), a 
document that FEMA describes as its capstone document to 
``understand our role in the emergency management community and 
provides direction for how we conduct ourselves and make 
decisions each day. The intent of our Pub 1 is to promote 
innovation, flexibility, and performance in achieving our 
mission. It promotes unity of purpose, guides professional 
judgment, and enables each of us to fulfill our 
responsibilities.'' \7\
---------------------------------------------------------------------------
    \7\ https://www.fema.gov/pub1
---------------------------------------------------------------------------
    Pub 1 defines FEMA's core values as compassion, integrity, 
fairness, and respect. The stated guiding principles are: 
accessibility, accountability, empowerment, engagement, 
flexibility, getting results, preparation, stewardship, and 
teamwork.\8\
---------------------------------------------------------------------------
    \8\ https://emilms.fema.gov/IS822/groups/38.html
---------------------------------------------------------------------------

HIGHLIGHTS OF PRESIDENT'S FY21 FEMA BUDGET REQUEST

    While briefing the Committee staff on the President's FY21 
budget request, FEMA stressed the following for the coming 
fiscal year: \9\
---------------------------------------------------------------------------
    \9\ Ben Moncarz, Acting Chief Financial Officer at FEMA, briefed 
Committee staff on the President's Fiscal Year 2021 budget request on 
February 20, 2020.
---------------------------------------------------------------------------
    <bullet> LContinuing to advance the priorities outlined in 
its FY 2018-2022 Strategic Plan and implementation of the 
requirements of the Disaster Recovery Reform Act and Pub 1;
    <bullet> LFocusing on filling critical gaps in the Incident 
Management (IM) Workforce to improve force strength, employee 
qualifications, and overall readiness to respond to disasters 
throughout the country;
    <bullet> LPrioritizing resources to ensure expeditious and 
fair review of allegations of misconduct or harassment by 
employees through our Office of Professional Responsibility; 
and
    <bullet> LInvesting in FEMA's real property requirements to 
ensure the Agency can adequately train its workforce, quickly 
distribute life-saving commodities, and provide effective 
recovery services to survivors.

    Additionally, the FEMA previewed several legislative 
proposals currently pending with the Office of Management and 
Budget. These draft proposals include:
    <bullet> LPublic Assistance Federal Cost Share Adjustment 
Proposal--would phase out federal support for repairing 
buildings and equipment; encourages more effective risk 
management, increased mitigation investment, and decreased 
federal disaster costs.
    <bullet> LAssistance to Individuals and Households Federal 
Cost Share Adjustment Proposal--would make the states 
responsible for no more than 25% of all eligible costs; 
encourages greater state ownership of housing assistance, 
promotes shared responsibility, and reduces federal disaster 
costs.
    <bullet> L25% Non-Federal Cost Match Proposal--would 
establish a local match for remaining preparedness grants that 
currently lack a local share: State Homeland Security Grant 
Program (SHSGP), Urban Area Security Initiative (UASI), and 
Transit Security Grant Program (TSGP). This proposal would 
establish a consistent cost share requirement across all of the 
preparedness grants.
    <bullet> LNational Security and Resilience Grant Program 
Legislative Proposal--a proposed consolidation of existing 
preparedness grants to a single $406.9M pot of money to remain 
available until September 30, 2022, to provide financial 
assistance on a competitive basis to non-Federal entities to 
address specific, existing, and emerging threats as identified 
and prioritized by the Secretary through the Administrator
    <bullet> LNational Flood Insurance Program (NFIP) 
Affordability Proposal--would establish a targeted means-tested 
affordability program for policyholders residing in the Special 
Flood Hazard Area who cannot afford rate increases mandated 
under current law.\10\
---------------------------------------------------------------------------
    \10\ Presentation of the Fiscal Year 2021 President's Budget for 
the Federal Emergency Management Agency. Delivered to House staff on 
February 20, 2020. Slide deck available upon request.

    It is unknown if or when these legislative proposals will 
be released publicly, but some reflect issues the Agency has 
raised in prior years without action on the proposals.
    Below are funding tables comparing FY20 enacted 
appropriations with FY21 Administration proposals for key FEMA 
programs and Federal assistance:

                           Disaster Relief and Mitigation \11\
---------------------------------------------------------------------------
    \11\ Department of Homeland Security, Federal Emergency Management 
Agency--Budget Overview, Fiscal Year 2021 Congressional Submission. 
Available at https://www.dhs.gov/sites/default/files/publications/
federal_emergency_management_agency.pdf
---------------------------------------------------------------------------
                                   (in millions)

----------------------------------------------------------------------------------------------------------------
                                                                                              Diff. of FY 2021
                                                                                FY 2021     Pres. Budget and FY
                    Program                        FY 2020        FY 2021     President's       2020 Enacted
                                                   Enacted      Authorized       Budget   ----------------------
                                                                                                $           %
----------------------------------------------------------------------------------------------------------------
Disaster Relief Fund (DRF)....................     $17,863.2    Such sums as     $5,653.3   -$12,209.9    -68.4%
                                                                   necessary
Pre-Disaster Mitigation (PDM).................        $0 \A\   Authorized in     $0.5 \C\          N/A       N/A
                                                                Stafford Act
                                                                 Sec. 203(i)
                                                                         \B\
                                               -----------------------------------------------------------------
  Total.......................................     $17,863.2                     $6,133.1   -$12,209.9    -68.4%
----------------------------------------------------------------------------------------------------------------
\A\ \B\ No money was appropriated by Congress to Pre-Disaster Mitigation (PDM) for FY20, but the Agency utilized
  the 6 percent set-aside established in Sec. 1234 of the Disaster Recovery Reform Act of 2018 (DRRA, Division D
  of P.L. 115-254) to fund PDM grants for the FY19 grants cycle and will do so again for the FY20 cycle, for
  which a Notice of Funding Opportunity is expected in the late summer/early fall of FY20.
\B\ To more permanently address the need for authorization and dedicated funding for Pre-Disaster Mitigation,
  the Disaster Recovery Reform Act of 2018 (DRRA, Division D of P.L. 115-254) amended the Robert T. Stafford
  Disaster Relief and Emergency Assistance Act to establish a National Public Infrastructure Predisaster
  Mitigation Assistance program, funded by a six percent set-aside from the Disaster Relief Fund, based on the
  estimated aggregate amount of the grants made pursuant to Stafford sections 403, 406, 407, 408, 410, 416, and
  428 for major disasters.
\C\ This request is to support three FTEs to implement the National Public Infrastructure Predisaster Mitigation
  Assistance program.

                             Federal Assistance: Grants \12\
---------------------------------------------------------------------------
    \12\ Department of Homeland Security, Federal Emergency Management 
Agency--Budget Overview, Fiscal Year 2021 Congressional Submission. 
Available at https://www.dhs.gov/sites/default/files/publications/
federal_emergency_management_agency.pdf.
---------------------------------------------------------------------------
                                   (in millions)

----------------------------------------------------------------------------------------------------------------
                                                                                              Diff. of FY 2021
                                                                                FY 2021     Pres. Budget and FY
                 Program                      FY 2020     FY 2021 Authorized  President's       2020 Enacted
                                              Enacted                            Budget   ----------------------
                                                                                                $           %
----------------------------------------------------------------------------------------------------------------
Assistance to Firefighters Grants (AFG)..        $355.0             $750 \D\       $344.3       -$10.7     -3.1%
Emergency Food and Shelter Program (EFSP)          $125           $187.5 \E\           $0         $125     -100%
Emergency Management Performance Grants          $355.0             $950 \F\       $279.3       -$75.7    -21.4%
 (EMPG)..................................
Flood Hazard Mapping and Risk Analysis             $263             $263 \G\         $100        -$163    -61.9%
 Program (Risk Map)......................
High Risk Dam Safety (HHPD)..............           $10              $40 \H\           $0         -$10     -100%
National Security and Resilience Grant              N/A  Pending Legislative        406.9       $406.9       N/A
 Program (NSRGP).........................                           Proposal
Port Security Grant Program (PSGP).......          $100             $400 \I\         36.3       -$63.6    -63.6%
Presidential Residence Protection                   $41    Authorization via           $0         -$41     -100%
 Assistance (PRPA).......................                     Appropriations
Public Transportation Security Assistance          $100           $1,100 \J\         36.3       -$63.6    -63.6%
 and Railroad Security Assistance (TGSP).
Regional Catastrophic Preparedness Grant            $10    Authorization via           $0         -$10     -100%
 Program (RCPGP).........................                     Appropriations
Staffing for Adequate Fire and Emergency         $355.0             $750 \D\       $344.3       -$10.7     -3.1%
 Response (SAFER) Grants.................
State Homeland Security Grant Program              $560     Such sums as are       $331.9      -$228.1    -40.7%
 (SHSGP).................................                      necessary \K\
Urban Area Security Initiative (UASI)....          $665     Such sums as are       $426.5      -$238.5    -35.9%
                                                               necessary \L\
Targeted Violence and Terrorism                     $10    Authorization via          $20          $10      100%
 Prevention Grant Program (TVTP).........                     Appropriations
                                          ----------------------------------------------------------------------
  Total..................................        $2,949             $4,440.5     $2,325.8      -$623.2    -21.1%
----------------------------------------------------------------------------------------------------------------
\D\ The United States Fire Administration, AFG, and SAFER Program Reauthorization Act of 2017 (P.L. 115-98)
  reauthorized AFG and SAFER through FY 2023.
\E\ The Housing and Community Development Act of 1992 (P.L. 102-550) reauthorized EFSP.
\F\ The Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53) reauthorized EMPG.
\G\ The Further Consolidated Appropriations Act, 2020 (P.L. 116-94) extended the National Flood Insurance
  Program and reauthorized Risk Map through FY 2020.
\H\ The Water Infrastructure Improvements for the Nation Act (P.L. 114-322) authorized the HHPD.
\I\ The Security and Accountability for Every Port Act of 2006 (P.L. 109-357) authorized the PSGP.
\J\ The Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53) reauthorized TGSP.
\K\ The Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53) reauthorized SHSGP.
\L\ The Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53) reauthorized UASI.

FEMA'S CHALLENGES

    There are several significant challenges facing FEMA that--
combined or alone--could be devastating blows to an 
organization that had seemingly recovered from the failings of 
Katrina. Some questioned the effectiveness of the Agency 
following the devastation in Puerto Rico and the U.S. Virgin 
Islands in the fall of 2017 following the impacts of Irma and 
Maria,\13\ and the subsequent resignation of former 
Administrator Brock Long.
---------------------------------------------------------------------------
    \13\ 2017 Hurricane Season FEMA After-Action Report. Available at 
https://www.fema.gov/media-library/assets/documents/167249
---------------------------------------------------------------------------
    FEMA has tried to reframe and focus its work since 2017: 
revising its mission statement (``Helping people before, 
during, and after disasters.'' \14\); releasing a streamlined 
strategic plan; and repeatedly stressing that disasters are 
``federally supported, state managed, and locally executed.'' 
\15\ That said, several hurdles exist to effectively converting 
these priorities into realities:
---------------------------------------------------------------------------
    \14\ https://www.fema.gov/about-agency
    \15\ ``FEMA: We are not the first responders''. Available at 
https://www.usatoday.com/story/opinion/2018/05/31/fema-supports-puerto-
rico-government-editorials-debates/35556537/.
---------------------------------------------------------------------------
    <bullet> LSenior leadership vacancies (HQ and Regions): Two 
of FEMA's three Presidentially appointed, Senate-confirmed 
(PAS) leadership positions remain vacant: Deputy Administrator 
and Deputy Administrator for Resilience. Additionally, there 
are several vacancies and/or acting career and political Senior 
Executive Service (SES) positions across key offices at 
headquarters and FEMA's ten regional offices.
    <bullet> LDisaster workforce shortfalls: The Agency has 
seen significant churn in the various cadres of disaster 
workforce employees. While there have been systemic issues in 
recruiting to fill these positions across administrations, 
there still do not appear to be any measurable gains to recruit 
and retain enough personal to meet the Agency's projected 
needs.\16\ A forthcoming GAO examination requested by this 
Committee is expected in the coming weeks.\17\
---------------------------------------------------------------------------
    \16\ GAO-19-617T--``EMERGENCY MANAGEMENT: FEMA Has Made Progress, 
but Challenges and Future Risks Highlight Imperative for Further 
Improvements''. Available at https://www.gao.gov/products/GAO-19-617T
    \17\ May 9, 2018 request letter to GAO Comptroller General from 
then Ch. Shuster and then RM DeFazio. Available upon request.
---------------------------------------------------------------------------
    <bullet> LInconsistent policies: FEMA is working to reform 
and standardize how Project Worksheets are developed for the 
Public Assistance (PA) program, to better align recoveries from 
region to region, but challenges remain. The Agency is now 
utilizing the PA National Delivery Model and the corresponding 
Grants Manager and Grants Portal systems for all ongoing 
recoveries, but there has been a learning curve as state, 
local, tribal, and territorial grantees and subgrantees use the 
new systems.\18\ FEMA has also centralized pieces of this 
process at three Consolidated Resource Centers in California, 
Texas, and Puerto Rico in an effort to lessen inconsistencies 
from one disaster to another.\19\ While these efforts are 
laudable and welcomed, there remains concern from disaster-
impacted communities experiencing conflicting guidance from 
FEMA, and frustration with misalignment with other federal 
disaster recovery programs.
---------------------------------------------------------------------------
    \18\ FEMA Public Assistance Delivery Model Fact Sheet. Available at 
https://www.fema.gov/media-library-data/1534520496845-
4b41646e3d8839c768deb3a7f4ded513/
PADeliveryModelFactSheetFINAL_Updated_052418.pdf.
    \19\ Id.
---------------------------------------------------------------------------
    <bullet> LHarassment in the workplace: Following high-
profile allegations of sexual misconduct of a former Chief 
Component Human Capital Officer, former Administrator Brock 
Long announced in July 2018 the establishment of a new Office 
of Professional Responsibility (OPR).\20\ OPR was established 
in 2019 and is in the process of hiring staff to fully execute 
its mission.\21\ Additionally, OPR is now investigating issues 
such as information technology policy infractions in addition 
to more serious harassment cases.
---------------------------------------------------------------------------
    \20\ July 30, 2018 Statement by FEMA Administrator Brock Long on 
the Results of a Recent Internal Investigation. Available at https://
www.fema.gov/news-release/2018/07/30/statement-fema-administrator-
brock-long-results-recent-internal.
    \21\ FEMA's Director of the Office of Professional Responsibility, 
Lauren Kaufer, briefed the Committee on January 17, 2020.
---------------------------------------------------------------------------
    <bullet> LPuerto Rico/Virgin Islands recoveries: Two and a 
half years after the 2017 hurricanes Irma and Maria, recovery 
funds are still slow to reach these U.S. territories in the 
Caribbean. As for the 2020 earthquakes that have struck Puerto 
Rico, the Governor's request for a disaster declaration under 
the Stafford Act for permanent repair work was denied. Further, 
despite the FEMA Administrator having the authority and ability 
to do so following the President's initial disaster 
declaration, FEMA has yet to approve this outstanding piece of 
the Governor's initial request.\22\
---------------------------------------------------------------------------
    \22\ 44 CFR 206.40(c).
---------------------------------------------------------------------------
    <bullet> LDRRA implementation: FEMA continues work toward 
full implementation of the Disaster Recovery Reform Act (DRRA, 
Division D of P.L. 115-254), with significant attention being 
paid to the establishment and initial round of funds for the 
Building Resilient Infrastructure and Communities (BRIC) 
program, which is the Agency's re-branding of the Predisaster 
Mitigation (PDM) program following Congress' establishment of a 
dedicated funding stream for PDM.

                              WITNESS LIST

    <bullet> LThe Honorable Peter T. Gaynor, Administrator, 
Federal Emergency Management Agency (FEMA), U.S. Department of 
Homeland Security

 
 FEMA'S PRIORITIES FOR 2020 AND BEYOND: COORDINATING MISSION AND VISION

                              ----------                              


                       WEDNESDAY, MARCH 11, 2020

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
room 2167, Rayburn House Office Building, Hon. Dina Titus 
(Chairwoman of the subcommittee) presiding.
    Ms. Titus. The subcommittee will come to order.
    I ask unanimous consent that the chair be authorized to 
declare recesses during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent that the Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    Today we are going to examine the priorities of the Federal 
Emergency Management Agency and its vision for addressing the 
challenges the agency faces in meeting its strategic 
priorities.
    I want to first welcome our new ranking member, Mr. Katko 
from New York State. We are delighted to work with you. We also 
sit together on the Homeland Security Committee, so many of 
those issues overlap. So I see a lot of opportunities for 
collaboration. We met personally, talked about some of our 
priorities, and we look forward to a great relationship going 
forward.
    I also now want to welcome our guest, who is the 
Administrator for FEMA, Mr. Peter Gaynor, and also a colleague, 
Mr. Cicilline, who knows Mr. Gaynor and would like to introduce 
him. So I now recognize Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chair, and thank you to the 
ranking member and the chair of the full committee for giving 
me this opportunity.
    Mr. Gaynor served as my emergency management director for 
the city of Providence when I served as mayor from 2008 to 
2014. His talent was then identified by our Governor, Governor 
Raimondo, who took him and hired him as the emergency manager 
and director for the State of Rhode Island from 2015 to 2018. 
And he was then named the Deputy Director of FEMA, and then 
ultimately, the Director of FEMA, and confirmed twice by the 
United States Senate. He served our country for 26 years as a 
United States Marine.
    But I can tell you my own personal experience is that, as 
an emergency management professional, he is really spectacular. 
And, in fact, he took the city of Providence, which was a 
fairly disorganized emergency management operation, and made it 
the first city in America with an accredited emergency 
management agency. That is just one example of the 
extraordinary work that he did, and earned the deep respect of 
all of the partners, both in the city and the State, and 
someone I know who will continue to carry out this great work 
ethic, and professionalism, and dedication to the mission of 
emergency management.
    And I learned yesterday that he was testifying before this 
subcommittee, and I am really grateful that you are giving me 
the opportunity to make the introduction. I can say, of all the 
many people I have worked with in my 25 years in public life, 
Pete Gaynor is at the top of the list, in terms of his 
professionalism, his expertise, his commitment to the public 
mission of emergency management, and I really appreciate the 
opportunity to share those thoughts with the committee, and 
thank you.
    Ms. Titus. Thank you, Mr. Cicilline. We appreciate that, 
and we look forward to working with Mr. Gaynor. We are glad now 
that he is no longer ``acting.'' We need that leadership at the 
head of FEMA, especially during these trying times.
    FEMA is supposed to be led by three presidentially 
appointed, Senate-confirmed public servants, but here we are 
with only one, so there is a lot of responsibility that is 
falling on your shoulders. Usually we think that it is the 
Senate's fault that things don't get done, but that is not the 
case with FEMA. The White House hasn't even nominated anyone to 
fill the other two positions.
    This void in management at FEMA has come at a time when we 
are navigating several major disaster declarations and a 
pandemic with potentially devastating impacts all across the 
country. So strong leadership is essential at every level 
within FEMA.
    There is also shared concern in this subcommittee that 
FEMA's workforce is stretched thin, and you noted as much in 
your written testimony. We want to talk more about how we can 
address that. It is clear we need some solutions to improve 
recruitment and retention at FEMA so that the agency can 
effectively respond to the needs of communities in the wake of 
disasters.
    It should go without saying that the Government must 
address the needs of all Americans in disaster recovery. 
However, some of our most vulnerable populations are being 
neglected or shamefully overlooked by existing FEMA programs. 
Committee staff have met with advocates from the disability and 
low-income communities regarding their frustration with FEMA's 
attention, or lack thereof, to their needs in times of 
recovery. After years of progress on this front in response to 
the failures we saw in Hurricane Katrina, these communities 
fear that we are backsliding. We will discuss these issues, 
too, I am sure, further on in today's hearing.
    I appreciate how much you have embraced the Disaster 
Recovery Reform Act and the long-term benefits it will have, 
not only for the well-being of our people in times of disaster, 
but for the resilience of our public buildings and private 
homes. In the wake of disaster we should be building back 
better than what existed before.
    That is why I was proud of the bipartisan work of this 
committee in passing H.R. 5756, the Resiliency Enhancement Act, 
cosponsored by Congresswoman Plaskett of the U.S. Virgin 
Islands and Congresswoman Gonzalez-Colon of Puerto Rico.
    Finally, I am certain that members of this committee will 
be interested in hearing updates on FEMA's involvement in the 
effort to prevent the spread of the coronavirus in the U.S. I 
know there are some developments just happening last night and 
this morning in the Senate, and we would like to have you 
address those, if this is the time for expanding the Stafford 
Act to cover coronavirus.
    At the State, local, Tribal, and Territorial level, public 
health officials are working with their emergency management 
counterparts to boost public preparedness, safety, and 
education. To date, FEMA has not been part of the coordinated 
effort to these ends, as it was in 2000 in response to West 
Nile outbreak, and we would like to talk about that.
    So I will close by saying we certainly recognize the 
challenges you face, Mr. Administrator, and we are here to 
help, because we want you to be successful in this job. Our 
communities need for you to be successful in this job. We look 
forward to working with you.
    [Ms. Titus' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
  from the State of Nevada, and Chairwoman, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    Today we will examine the priorities for the Federal Emergency 
Management Agency (FEMA) and its vision for addressing the challenges 
the agency faces in meeting its strategic priorities.
    I want to start by recognizing and welcoming our new Ranking 
Member, Mr. Katko of New York State.
    We also serve on the Homeland Security Committee, which has some 
overlapping jurisdiction, so I see great opportunities for 
collaboration.
    Our Subcommittee is responsible for a wide variety of issues and 
agencies, and produces more legislation than any other in this 
Committee.
    I look forward to keeping these efforts on track and working with 
you and your staff.
    This morning we are joined by FEMA Administrator Peter Gaynor who 
for the better part of the last year served in an acting role until he 
was confirmed earlier this year.
    FEMA is supposed to be led by three presidentially-appointed, 
Senate-confirmed public servants. Yet, here we are, and you're the only 
one confirmed.
    Here in the House, we often like to point to the lack of action in 
the U.S. Senate, but in this situation that's not the case.
    The White House hasn't even nominated anyone to fill the other two 
positions. And this void in management at FEMA comes at a time when we 
are navigating several major disaster declarations and a pandemic with 
potentially devastating impacts all across the country.
    Strong leadership is essential at every level within FEMA.
    There is also shared concern in this Subcommittee that FEMA's 
workforce is stretched thin, and you note as much in your written 
testimony.
    It's clear that we need solutions to improve recruitment and 
retention at FEMA so that the agency can effectively respond to the 
needs of communities in the wake of disasters.
    It should go without saying that the government must address the 
needs of all Americans in disaster recovery. However, some of our most 
vulnerable populations are being neglected--shamefully overlooked by 
existing FEMA programs.
    Committee staff have met with advocates from the disability and 
low-income communities regarding frustration with FEMA's attention to 
their needs in times of recovery.
    After years of progress on this front in response to the failures 
we saw in Hurricane Katrina, these communities fear that we are 
backtracking.
    We will discuss these concerns further during today's hearing.
    I appreciate how much you've embraced the Disaster Recovery Reform 
Act and the long-term benefits it will have, not only for the well-
being of our people in times of disaster, but for the resilience of our 
public buildings and private homes.
    In the wake of disaster, we should be building back better than 
what existed before.
    That is why I was proud of the bipartisan work of this Committee in 
passing H.R. 5756, the Resiliency Enhancement Act sponsored by 
Congresswoman Plaskett of the U.S. Virgin Islands, and Congresswoman 
Gonzalez-Colon of Puerto Rico.
    Finally, I'm certain that Members of this Committee would be 
interested to hear an update on FEMA's involvement in the effort to 
prevent the spread of the coronavirus in the United States.
    At the state, local, tribal, and territorial level, public health 
officials are working with their emergency management counterparts to 
boost public preparedness, safety, and education.
    To date, FEMA has not been part of this coordinated effort as it 
was in 2000 in response to the West Nile outbreak.
    I'll close by saying that we recognize the challenges you face, Mr. 
Administrator, and we are here because we want you to be successful in 
this job. Our communities need you to be successful in your job.

    Ms. Titus. I will now recognize the ranking member for an 
opening statement.
    Mr. Katko. Thank you, Madam Chair, and I appreciate that. 
And I appreciate the opportunity to serve on this committee and 
this subcommittee.
    And I want to echo your sentiments that we had a very good 
meeting before we came in here the last couple of days, talking 
about how we can proceed in a bipartisan manner. That seems to 
be the hallmark of this subcommittee, and it is a hallmark of 
what we do on the Homeland Security Committee, as well. So I am 
quite confident that we are going to be able to work well 
together and do good things together. We both are blessed with 
excellent staffers, as well, on this subcommittee. So I am 
excited for what the future brings for us on this subcommittee.
    And I am happy to talk to you again, Mr. Gaynor. I want to 
thank you for coming to my district last year to talk about and 
look at and survey for yourself some of the disaster issues we 
have.
    And when we had those discussions last year--I think you 
will recall, and we had them recently again--I voiced some of 
my concerns about FEMA, not so much how it is managed, but some 
of the Byzantine rules you have to go through to try and get 
disaster relief. What is considered as a disaster in upstate 
New York may pale in comparison to disasters elsewhere, but 
they are disasters, nonetheless, and I want to give you two 
quick examples.
    One was Moravia, New York. They had a flash flood after 
torrential rain came down, and it basically wiped out the 
town's sewer and water systems, and roadways, and all kinds of 
damage. For them, it was catastrophic. For FEMA it was a blip 
on a screen, and they didn't get any money.
    Something more severe happened recently that you were up in 
Lake Ontario for, and that was Plan 2014. That was implemented 
at the very end of the Obama administration, and it radically 
changed the regulation of water on Lake Ontario, and water 
levels on Lake Ontario for the first time in 70 years. In those 
ensuing 70 years, lakefront properties were developed, economic 
vitality became key for those counties on the lakeshore 
properties.
    In fact, one of the counties, 50 percent of their tax 
revenue comes from lakeshore properties. And they have been 
devastated 2 out of the last 3 years since Plan 2014 has been 
implemented. And again this year, they are expecting 
catastrophic water levels, probably worse than the other 2 
years.
    So, again, it may not rise to the level of a big disaster 
for a place like New York City, but it is devastating for 
people in upstate New York. And when you have hundreds of 
millions of dollars of damages, and then you have to tell your 
constituents, ``You don't qualify under FEMA,'' it is very 
frustrating. So I look forward to talking with you and 
developing programs that are going to help that.
    While we are working to get changes to Plan 2014, it is 
critical we also work to recover and mitigate against future 
flooding, and find ways to help communities outside the major 
urban areas that may not meet the damage threshold for a 
Federal declaration. Key issues relate to support for 
preliminary damage assessments, and clarifying how severe 
localized impacts of disasters are considered in the 
declaration process.
    Last year I introduced H.R. 4358, the Preliminary Damage 
Assessment Improvement Act, that would help clarify the support 
FEMA provides on damage assessments. I hope we can act on that 
legislation soon on this subcommittee.
    I also look forward to working with members of this 
committee on how we can further improve the declaration process 
for disasters with localized impacts. From a broader 
standpoint, it is critical for us to focus on how we can 
approach disaster response and recovery in an innovative and 
commonsense way that makes sense for local communities hit by 
disasters and for the Federal taxpayer. I believe it can be 
done, and I am confident, with your leadership, we can get 
there.
    I appreciate the progress being made on reforms we enacted 
in the Disaster Recovery Reform Act. However, as we are 
learning, more reforms and streamlining are needed to ensure 
communities can recover faster and smarter. Time is money, and 
the longer it takes for communities to rebuild, the higher the 
cost, not only for those communities, but also for the Federal 
taxpayer. So it serves no one when recovery drags on. We must 
find ways to do things differently to help speed up the 
process, and I am confident that you are the person to do that.
    The DRRA was a good step in cutting through some of the 
redtape, but more is needed. I look forward to hearing from 
FEMA--from you, Mr. Gaynor--and working with members on the 
committee, on ensuring our emergency management system works 
effectively for communities preparing for, responding to, and 
recovering from disasters.
    [Mr. Katko's prepared statement follows:]
                                 <F-dash>
  Prepared Statement of Hon. John Katko, a Representative in Congress 
    from the State of New York, and Ranking Member, Subcommittee on 
    Economic Development, Public Buildings, and Emergency Management
    I look forward to working with you, Chairwoman Titus, on critical 
issues of this Subcommittee as Ranking Member. I know traditionally 
this Subcommittee has worked in a bipartisan fashion and I hope we can 
continue that tradition.
    I want to welcome FEMA Administrator Gaynor and congratulate him on 
his confirmation in January. I also want to thank him for visiting my 
district as acting administrator last year to survey the Lake Ontario 
flood damage. The International Joint Commission's Plan 2014 has caused 
high water levels along Lake Ontario resulting in devastating flooding 
in my district in New York. While a presidential declaration was issued 
in 2017, there was no declaration for the 2019 flooding. It may not 
rise to the level of a big disaster for New York City, but the flooding 
was devastating for people in Upstate New York.
    And we continue to deal with flash flooding. While we are working 
to get changes to the Plan 2014, it is critical we also work to recover 
and mitigate against future flooding and find ways to help communities 
outside of the major urban areas that may not meet the damage threshold 
for a federal declaration. Key issues relate to support for preliminary 
damage assessments and clarifying how severe localized impacts of 
disasters are considered in the declaration process.
    Last year, I introduced H.R. 4358, the Preliminary Damage 
Assessment Improvement Act, that would help clarify the support FEMA 
provides on damage assessments. I hope we can act on that legislation 
soon.
    I also look forward to working with Members of this Committee on 
how we can further improve the declaration process for disasters with 
localized impacts.
    From a broader standpoint, it is critical for us to focus on how we 
can approach disaster response and recovery in an innovative and 
commonsense way that makes sense for local communities hit by disaster 
and for the federal taxpayer. I believe it can be done.
    I appreciate the progress being made on reforms we enacted in the 
Disaster Recovery Reform Act. However, as we are learning, more reforms 
and streamlining are needed to ensure communities can recover faster 
and smarter.
    Time is money. The longer it takes for communities to rebuild, the 
higher the costs not only for those communities but also for the 
federal taxpayer. So it serves no one when recovery drags on. We must 
find ways to do things differently to speed up the process. DRRA was a 
good step in cutting through some of the red tape, but more is needed.
    I look forward to hearing from FEMA Administrator Gaynor and 
working with him and Members of this Committee on ensuring our 
emergency management system works effectively for communities preparing 
for, responding to, and recovering from disasters.

    Mr. Katko. And with that, Madam Chair, I yield back.
    Ms. Titus. Thank you, and I now recognize the chairman of 
the committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Madam Chair. Thanks for holding 
this hearing.
    Mr. Administrator, thank you for being here today. 
Congratulations, I guess, on taking the job, and being 
confirmed. It is a very difficult job, as we all recognize.
    I took the committee down to Puerto Rico and the Virgin 
Islands a few weeks ago. In particular, the FEMA person in the 
Virgin Islands was very impressive. I guess it is his second 
tour of duty there. Puerto Rico is still a work in progress, I 
think, but I think FEMA is trying to get things on track. I 
couldn't tell whether some of the problems had to do more with 
the Government of Puerto Rico, or what the concern was, but I 
think they were going to finally start doing some housing 
reconstruction this month. And they say it is going to ramp up 
quickly. They have still got 24,000 blue tarps there.
    And then we went over to the other side of the island, 
which is a different story. I mean, not only do they still have 
hurricane impacts, but the earthquake was quite devastating. 
For one thing, there are schools where the hurricane shelters--
hurricane season is 3 months away, and the schools are 
collapsed. And most of the public buildings, too, are unusable, 
because they were pretty much all 1960s, 1970s vintage before 
we came up with more modern techniques that--and realized the 
extent.
    One thing, though--and hopefully you will address that 
here--is that we still don't have approval for permanent repair 
assistance. I met with a group of the mayors over in Ponce, but 
they represented the whole earthquake zone. And, you know, that 
is a concern, because the public buildings have to be 
reconstructed, and--well demolished, then reconstructed, and 
the schools and--I don't know what exactly is holding that up.
    And another observation would be people are having trouble 
with records again, particularly property records. And we 
adopted, after the hurricane, a self-certification document 
that FEMA used, but it isn't yet being used, or wasn't as of a 
few weeks ago in the earthquake zone. And I would hope that we 
can just dust off that form, and get these people the 
assistance they need more quickly.
    With that, I look forward to hearing your remarks.
    And also, I don't know if you will address this, or--it may 
come up in questions--what sort of planning is going on, since 
FEMA has played a key role, historically, in coordinating among 
agencies in, you know, SARs and some other things, whether that 
same role is being played today in the Federal Government.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you Chair Titus, and thank you Administrator Gaynor for being 
here today.
    As you know, this Committee is responsible for jurisdiction over 
all of FEMA's Stafford Act authorities, but also over Federal 
management of emergencies writ large.
    I've unfortunately been here to see FEMA during some its worst 
moments, but also, during some of its best.
    Last month, I led a delegation to Puerto Rico and the U.S. Virgin 
Islands.
    Two and a half years after hurricanes Irma and Maria devastated 
both, noticeable Federal recovery efforts leave a lot to be desired.
    But my delegation got the sense from your local partners in Puerto 
Rico and the U.S. Virgin Islands that their FEMA counterparts were 
willing and committed to their full recoveries.
    And, it's worth noting that we've noticed the uptick in approved 
Federal recovery assistance flowing to commonwealth and the territory.
    I also want to note for the record that it's been nearly eight 
weeks since a magnitude 6.4 earthquake struck southern Puerto Rico, and 
you have still not approved permanent repair assistance. I am also 
troubled to hear that survivors are having to go through a similar 
rigamarole as what happened in the wake of the 2017 hurricanes when it 
comes to registering for Individual Assistance--it's bureaucratic, 
cruel, and unnecessary. FEMA developed a self-certification document 
two and a half years ago in Puerto Rico, and it should just be using it 
again this time around.
    That said, I am pleased that you've accepted your promotion to this 
thankless role and that the Senate has confirmed you. As you know, 
you're only as good as your most recent disaster, so I expect you'll be 
leaning forward.
    We have strong expectations that you will continue to advance full 
implementation of the Disaster Recovery Reform Act. We're looking 
forward to a robust new pre-disaster mitigation program later this 
year, as former Deputy Administrator Kaniewski previewed for us last 
May.
    So, you've certainly got your work cut out for you.
    We look forward to your testimony today, but also to this 
Subcommittee working with you as a partner to ensure you have all the 
authorities you need to execute on your mission of helping people 
before, during, and following disasters.
    Thank you again.

    Mr. DeFazio. With that, Madam Chair, I yield back the 
balance of my time.
    Ms. Titus. Thank you, Mr. Chairman. I now recognize the 
ranking member of the committee, Mr. Graves, for an opening 
statement.
    Mr. Graves of Missouri. Thank you, Madam Chair, and I also 
want to thank Administrator Gaynor for being here today. And I 
also want to thank the Administrator for meeting with me and 
other members of the committee earlier.
    Ensuring there is ongoing communication is very helpful for 
Members whose districts have obviously been impacted by 
disasters.
    FEMA has a lot on its plate, and I know we have got more 
than 640 open disasters dating back to 2000. With 2017 to 2018 
being record years for disasters, we have to find some 
innovative ways to speed up recovery and get people and 
communities back on their feet more quickly. Otherwise, FEMA 
resources are going to continue to be stretched thin, which 
slows that recovery process even more.
    But redtape and bureaucratic requirements that may have 
been intended to save taxpayers' dollars, I think, actually 
cost the taxpayers more. And when FEMA resources are spent to 
claw back a few thousand dollars from an individual who applied 
for those funds in good faith, and may have spent those funds 
to repair their home, I think it costs more to collect those 
funds, or claw them back, and it also revictimizes those 
disaster victims.
    And that is why I introduced the bill, Preventing Disaster 
Revictimization Act, which requires FEMA to waive those debts 
for victims in instances where the agency was at fault. And I 
very much appreciate the committee unanimously approving that 
bill last month.
    But there are many more examples where current law in 
practice simply doesn't make sense, they increase costs, and 
they do slow recovery. And I hope to work with you, 
Administrator Gaynor, and the other members of the committee, 
on additional reforms to improve this process.
    There is also a lot more in your portfolio, including 
preparedness and response. And I hope today we can also hear a 
little bit about FEMA's unique role with respect to 
coronavirus. While currently HHS is in the lead, should there 
need to be a declaration pursuant to the Stafford Act, by law, 
the Administrator is going to report and advise the President 
directly.
    This requirement in law was a change after Hurricane 
Katrina to ensure the President is advised directly by the 
Government's emergency management expert. And while we hope 
such an emergency declaration is not needed, it is important 
that FEMA is at the table now, so that, should it be needed, 
there is a seamless transition to FEMA as that lead agency.
    But again, I want to thank Administrator Gaynor for being 
here, and I look forward to your testimony.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    I want to thank FEMA Administrator Gaynor for being here today. I 
also want to thank the Administrator for meeting with me and other 
Members of the Committee. Ensuring there is ongoing communication is 
helpful for members whose districts have been impacted by disasters.
    FEMA has a lot on its plate with more than 640 open disasters, 
dating back to 2000. With 2017 and 2018 being record years for 
disasters, we have to find innovative ways to speed up recovery and get 
people and communities back on their feet more quickly. Otherwise, FEMA 
resources will continue to be stretched thin--slowing recovery even 
more.
    Red tape and bureaucratic requirements that may have been intended 
to save taxpayer dollars may actually cost the taxpayer more. When FEMA 
resources are spent to claw back a few thousand dollars from an 
individual--who applied for those funds in good faith and may have 
spent those funds to repair their home--it costs more to collect those 
funds and revictimizes the disaster victim.
    That is why I introduced my bill, the Preventing Disaster 
Revictimization Act, to require FEMA to wave those debts for victims in 
instances where the agency was at fault. And I appreciate that the 
Committee unanimously approved that bill last month.
    But there are many other examples where current law and practice 
simply don't make sense, increase costs, and slow recovery. I hope to 
work with you, Administrator Gaynor and members of this Committee, on 
additional reforms to improve the process.
    There is also a lot more in your portfolio--including preparedness 
and response.
    I hope today we can also talk about FEMA's unique role with respect 
to the Coronavirus. While currently HHS is in the lead, should there 
need to be a declaration pursuant to the Stafford Act, by law, the 
Administrator would report and advise the President directly. This 
requirement in law was a change after Hurricane Katrina to ensure the 
President is advised directly by the government's emergency management 
expert. While we hope such an emergency declaration is not needed, it 
is important that FEMA is at the table now so that should it be needed, 
there is a seamless transition to FEMA as the lead agency.
    I want to thank Administrator Gaynor for being here today and look 
forward to his testimony.

    Mr. Graves of Missouri. And with that I would yield back 
the balance. Thank you, Madam Chair.
    Ms. Titus. And I would now like to welcome our witness, the 
Honorable Peter T. Gaynor, who is the new Administrator of the 
Federal Emergency Management Agency, known as FEMA.
    We thank you very much for being here today and for meeting 
with us. We look forward to your testimony.
    Without objection, the witness' full statement will be 
included in the record.
    And since your written testimony has been made a part of 
the record, the subcommittee requests that you limit your oral 
testimony to 5 minutes.
    So, Mr. Gaynor, the floor is yours.

   TESTIMONY OF HON. PETER T. GAYNOR, ADMINISTRATOR, FEDERAL 
EMERGENCY MANAGEMENT AGENCY (FEMA), U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Gaynor. Well, good morning, Chairman DeFazio, 
Chairwoman Titus, Ranking Members Katko and Graves, and 
distinguished members of the subcommittee. My name is Pete 
Gaynor, and I am the FEMA Administrator. It is an honor to 
appear before you today to discuss FEMA's strategic goals that 
will best serve the American people in 2020 and beyond.
    Interwoven into our priorities is an understanding that 
emergency management is about putting people first, both the 
disaster survivors we serve and the individuals who serve them. 
The principles within our strategic goals for 2020 were 
designed with lessons learned from recent historic disasters 
which have tested our Nation's ability to respond to and 
recover from multiple concurrent disasters.
    Recovery from these historic disasters continues today, 
even as we pivot to prepare for emerging threats facing our 
homeland. Resiliency is at the heart of America's heritage, and 
I remain confident in FEMA's ability to respond to any 
disaster, as well as support the efforts to contain and 
mitigate COVID-19.
    Experience has demonstrated that one of the most effective 
ways to support FEMA's mission is by building a culture of 
preparedness before disasters take place. Developing resilient 
communities reduces both loss of life and economic disruption. 
Every dollar invested in mitigation is estimated to save the 
American taxpayer $6 in future spending. It is for these 
reasons that building a culture of preparedness is the first 
goal within FEMA's strategic plan.
    As a former emergency manager at the State and local level, 
I am mindful that all levels of Government share a fundamental 
responsibility for disaster preparedness. In 2020, I am 
directing the agency to focus on advancing shared 
responsibility across FEMA's mission space.
    One of the most important ways to increase our preparedness 
for disasters begins with standardized building codes, which 
are designed to protect lives and property. State, local, 
Tribal, and Territorial governments must play a leading role in 
incorporating and enforcing disaster-resilient designs within 
our communities. Presently, less than half of U.S. 
jurisdictions have adopted the latest disaster-resilient 
building codes.
    FEMA will also continue to promote shared responsibility 
for preparedness by implementing the Building Resilient 
Infrastructure and Communities grant program, also known as 
BRIC. This year, FEMA was able to make $250 million available 
through BRIC to support pre-disaster mitigation programs 
designed to protect community lifelines and build more 
resilient infrastructure. As we move towards full 
implementation in October of this year, BRIC will continue to 
allow for larger and more consistent investments in 
preparedness.
    One of the most important considerations for building codes 
and mitigation projects is the risk of catastrophic flooding. 
Flooding is the most common and costly natural disaster in the 
United States. Ninety-eight percent of the counties across the 
country have experienced a flooding event. Mitigating these 
risks to protect people and property is not only a moral 
imperative, it is prudent fiscal policy. The investment in pre-
disaster mitigation across the country has resulted in $100 
billion in avoided losses over the past 40 years.
    In 2020, FEMA is focused on ensuring Americans are 
protected from floodwaters, both physically and financially. 
Flood insurance is the first line of defense. Managing risk 
through insurance helps families recover faster after 
disasters, and reduces the overall cost for taxpayers by 
lowering applications for assistance programs. In response to 
the 2019 flooding season alone, FEMA paid $1.1 billion for 
33,000 validated claims. Yet, despite these advantages, only 33 
percent of the people living within the special flood hazard 
areas carry flood insurance. FEMA hopes to coordinate with 
Congress to make flood insurance more financially accessible to 
all Americans to close the insurance gap.
    But to fully build a culture of preparedness, we must seek 
to incentivize external partners to proactively adopt better 
risk management practices by reducing Federal support for 
repetitive post-disaster repairs.
    FEMA's second goal is to ready the Nation for catastrophic 
disasters. This includes low- and no-notice incidents, which 
can overwhelm governments at all levels and threaten national 
security. Our Nation's readiness largely depends on the 
emergency management professionals who execute FEMA's mission. 
I have had the opportunity to see our dedicated employees 
across the country firsthand, and I believe that we must 
support FEMA professionals as they support the American people.
    Therefore, it is vital that we remain laser-focused on 
supporting our workforce by ensuring that our culture is 
reflected in our core values. FEMA will continue to ensure 
expeditious and fair review of allegations of misconduct 
through our Office of Professional Responsibility. We will also 
continue to prioritize that our workforce and leaders better 
reflect the diverse nature of our country.
    The final goal in our strategic plan is to reduce the 
complexity of FEMA. FEMA must be adaptable to meet the needs of 
disaster survivors, and we must ensure that assistance programs 
are accessible by making them easier to navigate. Recovery 
funds currently come from 17 different Federal agencies, and 
FEMA does not want to burden survivors by adding the complexity 
of an already intricate system.
    One of the most effective ways to reduce the complexity of 
emergency management is to reduce the overreliance on the 
Federal Government in the first place, and to better empower 
States and municipalities with the tools they need to manage 
smaller scale disasters. We are eager to work closely with 
Congress to increase this shared responsibility across the 
Nation. Whether it is increasing preparedness, readying the 
Nation for catastrophic disasters, or reducing the complexity 
of FEMA, increasing the shared responsibility of emergency 
management at all levels of Government is critical to our 
success. Emergency management works best when it is locally 
executed, State managed, and federally supported.
    I would like to thank the lawmakers here today for 
providing FEMA with the resources to build a prepared and more 
resilient Nation, and thank you for the opportunity to testify. 
And I look forward to any questions you may have today.
    [Mr. Gaynor's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Peter T. Gaynor, Administrator, Federal 
    Emergency Management Agency (FEMA), U.S. Department of Homeland 
                                Security
                              Introduction
    Good morning, Chairwoman Titus, Ranking Member Katko, and 
distinguished Members of the Subcommittee. My name is Pete Gaynor, and 
I am the Administrator of the Federal Emergency Management Agency 
(FEMA). It is an honor to appear before you today to discuss FEMA's 
evolving role in the emergency management community and our strategic 
priorities to best serve the American people in 2020 and beyond.
    I am proud to be part of an agency that, every day, helps 
communities before, during and after disasters, and I firmly believe 
FEMA has the best mission in the Federal Government.
    This job is about people--the disaster survivors we serve and the 
individuals who serve them.
    The nation is counting on us to accomplish our mission and we will 
do so in accordance with our core values of compassion, fairness, 
integrity, and respect. In the winter of 2019, FEMA re-introduced our 
capstone doctrine, Publication 1, which outlines this ethos. This 
document, in conjunction with our Strategic Plan for 2018-2022, serves 
as the roadmap for the future of the Agency.
    The guiding principles and priorities within these documents were 
designed with lessons learned from the rapid succession of historic 
disasters in recent years which have continued to test our Nation's 
ability to respond to and recover from multiple concurrent 
catastrophes.
    Recovery from these historic disasters continues to this day, even 
as we pivot to prepare for the evolving threats facing our homeland--
both natural and otherwise. In order to accomplish our mission, no 
matter what type of disaster takes place, it is imperative that the 
American people have the highest level of trust and confidence in 
FEMA's capabilities. This agency is often the last line of hope when a 
disaster strikes and cripples a community. We must be able to perform 
the delivery of lifesaving, life-sustaining resources on that 
community's worst day. With the gravity of this undertaking in mind, 
FEMA continues to champion our Strategic Plan, focusing on three key 
goals for the entire emergency management community: first, to Build a 
Culture of Preparedness; second, to Ready the Nation for Catastrophic 
Disasters; and, third, to Reduce the Complexity of FEMA. Our top 
priorities for 2020 are guided by these strategic goals.
                Part 1: Build a Culture of Preparedness
Building Codes
    FEMA's mission is helping the American people before, during, and 
after disasters. One of the most effective and fiscally responsible 
ways to begin is by building a culture of preparedness before these 
disasters take place. Developing resilient communities ahead of an 
incident reduces both the loss of life and economic disruption, and 
every dollar invested in mitigation is estimated to save the American 
taxpayer six dollars in future spending. It is for these reasons that 
building a culture of preparedness is the first goal within FEMA's 
Strategic Plan.
    Experience has demonstrated repeatedly that emergency management 
practices are most effective when locally executed, state managed and 
federally supported. FEMA cannot accomplish this mission alone. It 
requires mature and strong partnerships at the State, Local, Tribal, 
and Territorial (SLTT) levels. All levels of government, along with the 
private and non-profit sectors, share a responsibility for disaster 
preparedness. In 2020, I am directing the Agency to focus on advancing 
shared responsibility across FEMA's mission space.
    One of the most fundamental ways to bolster our preparedness for 
disasters begins with standardized building codes designed to protect 
lives and property. Presently, only 30 percent of U.S. jurisdictions 
have adopted the latest disaster resistant building codes. In order to 
address this vulnerability, FEMA will continue to encourage robust code 
enforcement and provide the information or training needed to help 
convey the value of standardized, up-to-date building codes. In 
congruence with this priority, FEMA is hiring more Subject Matter 
Experts and engineers to work with and contribute technical or 
engineering expertise to FEMA Headquarters, Regions and external 
stakeholders.
    To provide local partners with financial support for preparedness 
projects, FEMA will continue to implement the Building Resilient 
Infrastructure and Communities (BRIC) program. We would like to thank 
Congress for providing the legislative tools to create BRIC from 
Section 1234 of the Disaster Recovery Reform Act of 2018 (DRRA). Within 
its first year, FEMA was able to allocate $250 Million through BRIC to 
support community pre-disaster mitigation programs designed to protect 
lifelines and build more resilient infrastructure. As the program 
continues to mature, BRIC will continue to allow for larger and more 
consistent investments in preparedness that aim to reduce future costs 
to the Disaster Relief Fund. The current target date for Notice of 
Funding Opportunity is August 2020.
    Furthermore, over the course of the coming year, FEMA's Building 
Code Specialists will develop a national strategy for the adoption and 
enforcement of disaster resistant building codes through a state, 
local, tribal, territorial and partner-driven collaborative effort. As 
empowered by Congress in Section 1235(b) of DRRA, FEMA will use this 
initiative to identify national consensus-based codes and standards 
that resiliently incorporate hazard-resistant designs.
    One of the most important building code considerations is the risk 
of catastrophic flooding. As millions of American families 
unfortunately have experienced first-hand, flooding is the most common 
and costly natural disaster in the United States. Indeed, 98 percent of 
counties have experienced a flooding event, and flood waters continue 
to pose a greater potential for damage than any other natural disaster. 
Mitigating these risks to protect people and their property is not only 
a moral imperative, it is a prudent fiscal policy. The local adoption 
of minimum standards has resulted in $100 billion in avoided losses 
over the last 40 years.
    Considering the frequency and high costs of disasters such as 
flooding, FEMA is exploring ways in which to financially incentivize 
state and local partners to proactively adopt better risk management 
practices by rethinking the federal share of the financial burden. We 
hope to work closely with our congressional partners to improve Public 
Assistance programs as well as to identify ways to reduce federal 
support for the repair of buildings or equipment in order to encourage 
more leaders at the state and local level to proactively increase 
mitigation investment and ultimately decrease federal disaster costs.
Closing the Insurance Gap
    Another top preparedness priority for FEMA in 2020 is to ensure 
that Americans living within flood hazard areas are protected 
financially as well as physically. History has demonstrated that 
individuals, communities, and businesses that transfer their flood risk 
through insurance recover faster and more fully after a disaster. 
Approximately 40 percent of Americans do not have enough cash savings 
to cover a sudden unexpected expense and replacing their losses after a 
catastrophic event can force individuals to take on debt loads that 
prove disastrous in their own right. Insurance will help them to fill 
that financial void when a disaster occurs and better rebuild their 
lives in its aftermath.
    Furthermore, while insurance benefits those directly affected by a 
disaster, it also reduces the need for federal disaster assistance and 
lowers the overall costs for American taxpayers. Despite the 
advantages, only 33 percent of Americans living within Special Flood 
Hazard Areas (SFHAs) currently carry flood insurance policies, which is 
why closing this insurance gap remains a top strategic priority for 
FEMA. We hope to work closely with our congressional partners to 
improve the affordability of the National Flood Insurance Program 
(NFIP) in order to ensure that all Americans are financially prepared 
for flooding. Specifically, we have proposed the establishment of a 
targeted means-tested affordability program for policyholders residing 
in the SFHA who cannot afford rate increases mandated under current 
law.
    In addition, in order to help incentivize state and local 
communities to prioritize adequate insurance coverage and smart land 
management, FEMA plans to propose phasing out Public Assistance for 
public buildings. While the Disaster Relief Fund (DRF) supports 
survivors in the immediate aftermath of a major disaster declared under 
the Stafford Act, this federal support only serves as a temporary 
safety net for immediate needs and does not provide for complete 
financial recovery. Financial preparedness, including having an 
insurance policy on personal and public properties, is critical to 
helping rebuild a home, replace belongings, and restore order to a 
family and community.
    Disasters are becoming costlier. Direct average annual flood losses 
have quadrupled from approximately $4 billion per year in the 1980's to 
roughly $17 billion per year between 2010 and 2018. In order to further 
incentivize state level investments that mitigate against these rising 
costs, FEMA plans to propose legislative opportunities to promote 
shared responsibility for assistance to individuals and households. 
Specifically, we hope to work with our lawmakers to readjust the 
federal contribution and make states responsible for no more than 25 
percent of all eligible costs in housing assistance after a disaster 
such as floods.
    Incentivizing increased adoption of minimum standard building codes 
and closing the flood insurance gap is a fundamental strategic priority 
for FEMA in 2020 as we work to build a culture of preparedness.
          Part 2: Ready the Nation for Catastrophic Disasters
    The second goal in FEMA's Strategic Plan for 2020 and beyond is to 
ready the nation for catastrophic disasters. Catastrophic disasters, 
including low- and no-notice incidents, can overwhelm the government at 
all levels and threaten national security. They are life-altering 
incidents for those impacted, causing a high number of fatalities and 
widespread destruction.
    Catastrophic disasters disrupt lives and hurt our communities--
physically and emotionally. Readiness is critical for FEMA and our 
partners to ensure that the response and recovery missions are 
appropriately executed and successful.
Expanding and Supporting our Workforce
    The Nation's readiness depends on emergency management 
professionals who execute the mission on behalf of the Federal 
Government and SLTTs. This requires a scalable and capable National 
incident workforce that can adapt and deploy to a changing risk 
landscape, greater integration with our partners at all levels, and the 
ability to communicate and coordinate effectively in every situation. 
It is for these reasons that FEMA is focused on filling critical gaps 
in the Incident Management Workforce with applicants possessing 
enhanced qualifications to improve force strength and increase our 
readiness to respond to disasters throughout the country. Incident 
Management personnel are expected to maintain a constant state of 
readiness and preparation, and the agency is committed to regularly 
exercising and utilizing this workforce.
    FEMA is also committed to ensuring that our expanding workforce is 
empowered to succeed in their mission. As outlined in our capstone 
doctrine, Publication 1, FEMA personnel are expected to collaborate 
with colleagues and assist survivors under the auspices of our core 
values: compassion, fairness, integrity, and respect. In order to 
ensure that our emergency management professionals are unhindered 
within the workplace and able to focus on the life-saving missions at 
hand, FEMA continues prioritizing resources to ensure expeditious and 
fair review of allegations of misconduct through our Office of 
Professional Responsibility.
    I have seen firsthand the dedication our employees exhibit--from 
FEMA Corps members, to our incident workforce, local hires, reservists, 
and full-time employees. It is vital that we remain equally devoted to 
supporting our employees and ensuring that our work culture reflects 
our core values. It is my firm belief that if we take care of and 
empower the people of FEMA, then these steadfast public servants will 
be ready to deliver meaningful and much needed assistance to our 
citizens when they need it the most after a disaster. I was recently 
able to meet with one such employee in Puerto Rico who personifies this 
commitment to service. Mr. Luis Lozano, a Telecommunications Manager 
within our Joint Recovery Office, risked his own life to pull an 
unconscious stranger from a smoke-filled vehicle.
    FEMA is not perfect. We must accept responsibility for our 
shortcomings and seek out solutions so our mistakes will not be 
repeated. However, for any failure we may have, I can show you 
countless success stories, large and small, that have made a difference 
in bettering the lives of disaster survivors and furthering the 
readiness of the Nation.
                 Part 3: Reduce the Complexity of FEMA
    The third overarching goal for FEMA is to reduce the complexity of 
our organization and the services we provide. FEMA must be a modern 
agency that can adapt to both the public and government's priorities, 
while creating and using innovative solutions for the emergency 
management mission. A simplified FEMA streamlines survivor experiences, 
simplifies processes and policies for disaster staff, and improves 
stewardship of federal taxpayer dollars.
    FEMA is committed to simplifying our processes and putting 
survivors first. We are looking at ways we can streamline our 
assistance programs to make FEMA's programs as clear and easy as 
possible for survivors and grantees to navigate.
    Reducing administrative and bureaucratic burdens will allow 
survivors and communities to receive federal assistance quicker. 
Throughout the Federal Government, there are several programs that 
offer assistance to survivors. Presently, FEMA administers more than 40 
financial assistance programs, issuing thousands of grant awards each 
year worth billions of dollars. We are working with our partners to 
improve some of these activities to ensure survivors can better 
navigate these various programs. For example, FEMA is consolidating and 
updating all FEMA Individual Assistance (IA) policies and program 
guidance to simplify and streamline information about IA programs. 
Through the Individual Assistance Program and Policy Guide created in 
2019, FEMA has produced a single reference resource for all IA programs 
on behalf of SLTT partners assisting survivors in post-disaster 
recovery.
    This drive to simplify the process is exemplified within FEMA's 
Grants Management Modernization Initiative and is another strategic 
priority for the agency in 2020 and beyond. The Grants Management 
Modernization (GMM) Program is a FEMA-wide initiative to modernize and 
consolidate existing FEMA grants management systems and business 
processes into one single IT Platform with one common grants management 
life cycle to better support the agency's mission. We will continue to 
prioritize this program in 2020.
    FEMA's commitment to reduce complexity, uniformly administer 
grants, and ensure the proper controls for its grant programs will 
improve the Agency's ability to support survivors and communities. By 
increasing transparency and prioritizing analytics, FEMA is taking the 
steps necessary to keep pace with a rapidly changing world, streamline 
its processes to stay ahead of emergencies, and deliver swift, 
effective assistance in times of greatest need.
                               Conclusion
    In conclusion, I would like to thank Congress and the President for 
providing FEMA with the resources to help people before, during and 
after disasters while allowing us to strive for our vision of a 
prepared and more resilient Nation. Every disaster is unique with its 
own set of challenges, yet in the spirit of constant improvement, we 
are exploring how to incentivize investments that reduce risk and 
reduce disaster costs at all levels.
    As we examine and further develop these initiatives, we will find 
that some can be accomplished by existing authorities Congress has 
already provided to us. There will also be some challenges that cannot 
be solved by administrative action alone. As we identify these 
opportunities to improve the Agency, we will work with this committee 
and the rest of Congress to ensure we move forward in close 
partnership. I look forward to working in concert with you to 
accomplish our shared goals in service of the American people.
    Thank you for this opportunity to testify on behalf of the 
dedicated employees of FEMA and share the priorities of this Agency in 
2020 and beyond. I look forward to answering any questions that you may 
have.

    Ms. Titus. Thank you, Mr. Administrator, for being here. We 
appreciate your testimony. We are now going to move on to 
Member questions. Each Member will be recognized for 5 minutes, 
and I will start by recognizing myself.
    Administrator Gaynor, you discussed the need to grow and 
retain your national incident management workforce. We are 
spending millions of dollars to train these folks, only to see 
them then leave their jobs. Based on the briefings we have 
received over the last year, any gains FEMA made in growing its 
workforce have been offset by relatively equal numbers of 
people who are leaving.
    You have been at the agency and at this kind of work for a 
long time. I wonder if you have some plans, what you are 
thinking about, keeping these public servants from leaving 
after they learn the skills to deal with disasters.
    And have you explored seeking similar return-to-work 
protections that Americans interested in serving in disasters 
could have, similar to the National Guard and military reserve, 
so when they go off to duty, when they come back, they have a 
guaranteed job, something like that?
    Mr. Gaynor. Yes, ma'am. Thank you for your question.
    First I would like to say that I think I have the greatest 
workforce in Federal Government, along with the greatest 
mission in Federal Government, helping people before, during, 
and after disasters.
    We have been focused on making sure that we attract and 
recruit the best qualified individuals from across the country 
to come and join our mission, as well as retain all those great 
employees that come here to participate in providing disaster 
assistance to disaster survivors across the country in all 
sorts of different circumstances.
    This has been one of my first goals, even as the Deputy 
Administrator at FEMA, and continues to be my goal today, to 
make sure that we have a diverse, ethical, integrated workforce 
from the beginning. And so I have a number of different 
initiatives going on within our mission support branch to focus 
on retention and retaining, career path, and--again, we 
retain--we put a lot of money and invest a lot of money into 
our workforce, and it is our number-one priority. Without 
people, you know, it makes it extremely difficult for me to 
deliver any kind of mission. So this is my first priority.
    Ms. Titus. That is great. We often see pictures and hear 
stories of heroes during times of disaster, and we hate to lose 
them, or not get them in the first place because they are 
afraid they will lose their job, and then what will they go 
home to.
    Mr. Gaynor. Yes, ma'am.
    And for US&R, I think we would love to have a conversation 
with Congress about moving that forward.
    Again, the large majority of my workforce are reservists, 
about 12,000. And these are the people I count on every day to 
leave their homes, go to the field, and, again, provide that 
disaster assistance to our disaster survivors. So, again----
    Ms. Titus. Well----
    Mr. Gaynor [continuing]. A critical part of our workforce.
    Ms. Titus. Well, great, we look forward to working with you 
on that.
    My second question--and this is something I noted in the 
opening statement--is I am concerned about what appears to be 
backsliding with FEMA's work with people with disabilities. The 
Office of Disability Integration and Coordination was 
established a decade ago, but the administration seems to be 
pulling back in their efforts with the community.
    The ODIC is absent from the weekly national disability 
stakeholders' calls, they are consistently absent in any 
discussion related to emergency. And the emergency preparedness 
report released last fall, which guides FEMA's mission, makes 
zero mention of people with disabilities.
    Could you speak to these concerns, and give some assurances 
to us, as well as the 61 million Americans who have a 
disability, that you are not forgetting them, and that you do 
see them and their challenges?
    Mr. Gaynor. Yes, ma'am. The Office of Disability 
Integration and Coordination works directly for me. The 
Director and I have traveled numerous times to make sure that 
we are connecting with that community.
    I have a sister who has a disability, so this is at the top 
of my priority list, making sure that we serve everyone, to 
include those with access and functional needs.
    The office has conducted numerous outreach to dozens of 
different stakeholders in the community: Wounded Warrior 
Project; our National Council on Disability; National VOAD, who 
represents 70 or 80 different volunteer organizations. I 
believe that our outreach is comprehensive.
    We also have the ability to send disability-integrated 
employees to disaster sites to make sure that we are taking 
care of those disaster survivors who need it the most.
    I would be happy to provide you or any member of the 
committee a brief from my team on all the things that we are 
doing to improve the connection between disaster services to 
those with access and functional needs.
    Ms. Titus. Well, I think that would help reassure folks. 
But also, maybe you could direct the Office of Disability 
Integration and Coordination to get on those national 
stakeholder calls, and that would be an improvement, as well.
    Mr. Gaynor. Yes, ma'am.
    Ms. Titus. Thank you. I now recognize the ranking member 
for 5 minutes.
    Mr. Katko. Thank you, Madam Chair. I appreciate that. I am 
going to kind of give you a fact pattern, and then maybe we can 
work from that fact pattern, because I think it would be 
instructive here.
    I mentioned Plan 2014 in my opening statement, but I just 
want to kind of give you a couple of examples that have 
happened. Since Plan 2014 has been implemented, there has been 
catastrophic flooding on Lake Ontario 2 out of the first 3 
years of its implementation.
    Sodus Bay makes up 50 percent of the tax revenue for Wayne 
County, or other shoreline properties. And they have been 
dramatically affected. And the town of Sodus Bay really is 
going to be--literally, going to be under water this year. And 
there are multiple restaurants, marinas that are probably going 
to not survive, financially.
    Same with Fair Haven next door. Greene Point Marina, for 
example, has been in existence for 115 years, is on the verge 
of going out of business because they have suffered over $4 
million worth of losses and damages from these two flooding 
acts.
    Put your face on this, too. Bill and Karen Dunn, they 
bought a house in 2017 on Lake Ontario that had not had 
flooding in 90 years, and 2 out of the 3 years their house has 
been under water. And they are not wealthy people.
    And this is going on across 200 miles of Lake Ontario 
shoreline. And, to date, zero FEMA funds are going there 
because of the technical rules, if you will. And I know I have 
talked to you about this, and I am--not to accuse you, I am 
just saying I want to know how we can fix this and think about 
this. And you add into what happens in those smalltown 
disasters--we are really a blip on the screen for FEMA, but for 
those small towns, they are catastrophic disasters, like I 
mentioned with Moravia.
    And I know the Disaster Recovery Reform Act directed FEMA 
to give greater consideration for localized impacts of 
disasters and declarations. And I know you have pushed out some 
guidance to your regions. But, from a practical standpoint, how 
is localized impact giving greater weight?
    And what are the shortcomings now?
    What can we do, moving forward, to try and get a better 
handle on this?
    And if it needs legislation, tell me what we need.
    Mr. Gaynor. Yes, sir. So, as it relates to flooding, and 
whether it is in your district or across the country, really, 
the best defense against flooding is insurance: 1 inch of water 
is $25,000 in damage.
    And if I can give you an example from Hurricane Harvey in 
Houston--and we have a couple different programs that we offer 
in disasters. One of them is Individual Assistance. And the cap 
for Individual Assistance is about $34,900. That is the max you 
can get. And the other program is in NFIP, National Flood 
Insurance Program. The cap on that is $250,000 for the 
structure, and another $250,000 for the content.
    So in Harvey, very few people max out in IA, very few. The 
average IA check that we sent to disaster survivors was about 
$6,000, average. If you had flood insurance, the average check 
that you got from the insurance company, NFIP, was about 
$119,000. And again, the difference is dramatic. Will $6,000 be 
helpful in a flooding event? Absolutely. But will it help you 
repair or build your house back? It will be a difficult 
stretch. But if you had $119,000, it is a good start to getting 
your life back.
    So I would just implore everyone--again, this is the 
insurance gap that I talked about. Flood insurance is your best 
defense. The average cost for an insurance program is about 
$700 across the Nation. And you can get that through your local 
insurance adjuster. So it doesn't matter----
    Mr. Katko. Does that go up if there is continuous flooding 
that is evident?
    Mr. Gaynor. Say that one more time, sir.
    Mr. Katko. Does that go up, the premiums go up, if there is 
continuous flooding happening?
    Mr. Gaynor. Again, I think you would have to call your 
insurance broker----
    Mr. Katko. OK, we will check that out, OK.
    Mr. Gaynor [continuing]. To kind of get the details about 
where you live, and what your risk is. I mean I don't want to 
give any specifics on it, because it is, I think, house by 
house. But again, essentially, it is the best defense.
    When it comes to localized impacts, we have six things we 
look at. And we want to give greater weight to localized 
impacts, but that doesn't necessarily mean it--like localized--
greater weight on localized impacts wins every time. I mean 
there is a tension between localized impact and the capacity of 
a local community or a State or a county----
    Mr. Katko. OK, applying what you know about Lake Ontario 
and what has been happening up there, do you foresee possibly 
seeing a different result of what they have had so far, which 
is basically nothing?
    Mr. Gaynor. For an award?
    Mr. Katko. Yes.
    Mr. Gaynor. Well, again, sir, it is based on damages and 
eligibility and, you know, we do this--it is called a pre-
disaster assessment on damages.
    Mr. Katko. Yes, just--I am getting ready to run out of 
time, so I just want to interrupt you real quick.
    There is, literally, hundreds of millions, if not billions 
of dollars' worth of damages on this shoreline that can be 
proven, but they don't fall into the FEMA bucket. And that is 
our concern. That is the point I am trying to get at.
    Mr. Gaynor. Yes, sir.
    Mr. Katko. And so what can we do about that?
    Mr. Gaynor. There are 19 different Federal agencies that 
have probably 90 different disaster programs. I would be happy 
to work with you and your staff to see is there another program 
other than FEMA that fits into that problem set that we can 
help with.
    Mr. Katko. Thank you. I yield back.
    Ms. Titus. Thank you. We will work on that.
    I now recognize the chairman for 5 minutes.
    Mr. DeFazio. Thanks, Madam Chair.
    Mr. Administrator, I raised the issue of the Individual 
Assistance and self-certification consequent to what I had 
heard in Puerto Rico. And you had developed this process 
previously, but it isn't being currently applied for the 
earthquake victims.
    So what is the rationale to change back to the more 
difficult process?
    Mr. Gaynor. Yes, sir. I was just in Puerto Rico after the 
new year, and we are using self-certification, the same process 
that we used in Maria. There is no difference. I asked that 
specific question to make sure that we didn't create a new 
program. It has been in use since days after the earthquake 
struck. And again, I have had direct contact with my leadership 
down there on this topic.
    Mr. DeFazio. OK, well, we heard some things to the contrary 
when we were down there, and if you could just maybe reach back 
out again, particularly----
    Mr. Gaynor. I will----
    Mr. DeFazio [continuing]. As relates to the earthquake----
    Mr. Gaynor. I will follow up.
    Mr. DeFazio. Yes.
    Mr. Gaynor. Yes, sir.
    Mr. DeFazio. That would be good.
    Also, the chancellor of Germany said today she expects, 
according to her experts, that 70 percent of the people in 
Germany will get the COVID-19. And there is, really, no reason 
that--you know, if that does happen in Germany, it is likely to 
happen here.
    And I am just wondering what kind of disaster pre-planning, 
continuity for FEMA itself is being done now in anticipation 
that we might have a national disaster declaration. We 
certainly have a number of States already that have declared 
disasters.
    Mr. Gaynor. Yes, sir. And if I can divide it into a couple 
of different buckets----
    Mr. DeFazio. Sure.
    Mr. Gaynor. So we are in support of HHS. They are the lead 
in this COVID-19 disease. And so we have, from the beginning, 
been providing interagency coordination, planning, analysis on 
a number of different things that we have a specialty in. So we 
have been in support from day one. I have about 30 people that 
work every day in support of HHS.
    When it comes to inside FEMA, I have three priorities that 
I have given the workforce from the beginning. Number one is 
preserve and protect the force. I need to protect my workforce 
because my number two priority is to be able to deliver my 
mission-critical missions in a degraded COVID-19 environment. 
So make sure we have enough people to execute our mission-
essential functions. And then lastly, number three, is support 
HHS and anything they need for their attack on squashing COVID-
19 across the country. Those are the three priorities that we 
operate on today.
    We have members of the task force that are in consultation 
with them daily about what they need. And so it changes every 
day. It is fluid, it is dynamic. And, I know the administration 
is looking at all tools at their disposal to do battle COVID-
19.
    Mr. DeFazio. OK, thank you.
    Thank you, Madam Chair.
    Ms. Titus. Thank you. I now recognize Mr. Graves.
    Mr. Graves?
    Mr. Graves of Louisiana. Thank you, Madam Chair.
    Administrator, thank you for being here. I appreciate the 
opportunity to meet with you again. And as I told you last 
time, I am not sure how many people I would wish that job on. 
That is a tough job that you have stepped into, and you have 
inherited an awful lot of disasters that are going on, as the 
ranking member noted earlier.
    I want to flag a few things for you.
    Number one, the Disaster Recovery Reform Act that became 
law in 2018, and a bipartisan bill that many members in this 
committee worked on, it had a provision in there related to 
rebuilding of schools and other public facilities. In the 
Stafford Act it says that each facility that floods--``facility 
that floods''--is to have a $500,000 deductible.
    The way that FEMA has applied that is they have applied 
that $500,000 facility--which I view as being in a school--they 
have applied it to a storage shed, they have applied it to a 
gymnasium, they have applied it to the elementary school 
building, they have applied it to the middle school building, 
they have applied it to the high school building, they have 
applied it to the cafeteria. So, all of a sudden, what would 
have been a $500,000 payment that I think Congress intended in 
Stafford, has become, who knows, an $8 million payment.
    Many of our schools get their funds from property taxes. 
Properties have been destroyed during the floods. So you can 
just see this whole cascading effect.
    So in that bill Congress enacted a change that made it 
clear it was $500,000 per facility, period, for a school, for a 
jail, whatever it is. That was law over a year ago. We have 
schools that still have not been rebuilt from our August 2016 
flood because FEMA has not changed their rules. They have not 
implemented this law that was put in place over a year ago.
    So we have children that are being affected. We have 
schools that are doubling up. We have temporary buildings. We 
have schools that are literally in the same shape they were in 
before, because they can't afford to rebuild them, because they 
can't afford the deductible.
    Could you please make this a priority, and fix this? The 
law is crystal clear. I think the law was clear before; now it 
is even more clear, if that is possible. Would you please make 
this a priority and get this fixed as soon as possible?
    Mr. Gaynor. Yes, sir. And I will look into the specifics of 
how we have applied it, and the actual--you know, right down to 
the local and county and State level. I don't know enough 
detail about how we are actually applying it, but you have my 
commitment that I will get you feedback, and we will compare 
what the law says and how we are applying it. And we will work 
towards----
    Mr. Graves of Louisiana. Thank you.
    Mr. Gaynor [continuing]. So that we----
    Mr. Graves of Louisiana. Administrator, I don't think there 
is any argument over what the law says. Actually, Congress has 
stepped in and done the same thing in the past for past 
disasters, whenever FEMA has applied--and again, in my 
opinion--inappropriately applied Stafford. So there is nobody 
who should be reinventing the wheel. You can cut and paste what 
you have done in the past, and just apply it here.
    The second issue is--because I am burning time here--the 
second issue, we also included a provision in there that, I 
think, was very well-thought, bipartisan support, that says 
that FEMA should get together with the Federal Highway 
Administration and develop standards for evacuation routes. And 
the reason is because, in the event of disasters, we have found 
that many of our evacuation routes are inundated or otherwise 
impassable.
    Now, you think about that for a minute. If our evacuation 
routes are impassable, that is a big deal. In our August 2016 
flood the interstate barrier between the east and west lane 
actually served as a levee--we needed levees, not there--which 
exacerbated flooding to the tune of 6 and, in some cases, maybe 
as high as 8 feet higher inundation on the north side of the 
interstate. It actually created victims, because the people 
couldn't get off the interstate. They were stuck on these 
little interstate islands. We had to fly helicopters to drop 
food and supplies to them. It was ridiculous.
    So we put a provision in and said, hey, get with Federal 
Highway Administration, develop the right standards.
    Nothing has been changed on this interstate. Nothing. Would 
you please look into this, and make this a priority? There was 
some very tenuous guidance that was issued that didn't even 
come close to hitting the mark on this. So would you please 
look into this, and make sure that this works?
    Mr. Gaynor. I will, sir.
    Mr. Graves of Louisiana. All right, and last question. I am 
going to guess that, if you did work and you didn't receive a 
paycheck for a couple of years, that would probably make it 
very difficult on you--I don't know if you are married, but--
your spouse, your family. We have contractors in Louisiana that 
have done work in the Virgin Islands. Look, I know we can point 
fingers at everybody, we can point fingers at the companies, we 
can point fingers at the USVI Government, you can point fingers 
at me. I don't care.
    Administrator, this is not OK. You are losing your disaster 
response capabilities across the United States. You are going 
to be limited to having two big companies left, and they are 
going to gouge you on prices. This is not in your interest. 
Would you please step in and provide some leadership and 
address this?
    I yield back.
    Mr. Gaynor. Yes, sir.
    Ms. Titus. Thank you. I now recognize Representative Holmes 
Norton for 5 minutes.
    Ms. Norton. I very much appreciate this hearing, Madam 
Chair.
    Administrator Gaynor, I looked at your strategic plan. It 
covers 4 years. I looked at your so-called ``Publication 1''. 
You call it a capstone document. Given the extreme weather--and 
some of it has been discussed here, and they, of course, amount 
to floods and fires and hurricanes and earthquakes--there was 
no mention of the climate change that may be the cause of these 
increases, and the seriousness.
    So I need to know whether you recognize what is happening 
across the country and across the world as significantly 
different from what FEMA has experienced before, and that 
climate change is real.
    Yes, sir?
    Mr. Gaynor. Yes, ma'am. Just to be clear on ``Publication 
1,'' ``Publication 1'' is really focused on the people of FEMA, 
and that is kind of the purpose of that document.
    So when it comes to climate change, you know, we are, at 
FEMA, committed to respond to any disaster, no matter the 
cause. But that doesn't say we don't embrace a changing 
climate. Every mitigation plan in the United States at the 
State level is required to address changing conditions. They 
need to change the extreme environment, they need to address 
infrastructure, they need to address demographics to make sure 
that we address it.
    You can look at the past 75, 80 years--and I will just pick 
hurricanes--they are more frequent, they are more intense, they 
are more costly, they are more deadly. And we understand that. 
And for my role here at FEMA--and this is the same concept I 
have had as a local and at State--we will--we embrace all of 
those things.
    And I am not going to argue with the science of it. My, 
really, job is to make sure that the Nation--I am prepared to 
deliver those disaster resources to the Nation, no matter the 
cause.
    And so I am going to get graded on my response to a 
disaster. And you can name any one of them. And that is what we 
are focused on. However, we embrace all of those things to make 
sure that we have good planning, that we invest in pre-disaster 
mitigation. We realize that we cannot sustain the cost of 
disasters like we have seen in 2017 and 2018.
    Again, I thank Congress for passing the DRRA that allowed 
us to set aside 6 percent of disaster costs for pre-disaster 
mitigation. That changes the dynamic in the country, saying 
that we are going to invest in pre-disaster mitigation before a 
disaster happens. That is my tool to address some of those 
concerns that you have.
    Ms. Norton. Well, that is--your answer is important 
because, obviously, what we are experiencing today is a 
difference in quality and in quantity of what we have ever 
experienced. So you are going to be the capstone agency. There 
is no way to get around who the Nation will look to, so I 
appreciate what you said.
    Now, the Nation's Capital, which I represent, is located on 
two rivers, the Anacostia and the Potomac, and has experienced 
very severe flooding. I mean flooding even on our main avenues, 
where the Archives are, where the most important businesses 
are. I am very pleased in your testimony, while you didn't 
mention the words ``climate change,'' you did talk about 
resistant infrastructure. You did talk about catastrophic 
flooding.
    What is FEMA doing to prepare for urban flooding where you 
may have whole cities under water, or important parts of cities 
like the Nation's Capital?
    What is FEMA doing to prepare for that kind of catastrophe 
that could face, not only the Nation's Capital, but many other 
cities which are located on the banks of rivers?
    Mr. Gaynor. Yes, ma'am. I think we are addressing all kinds 
of flooding. When people think of flooding, they think of a 
hurricane and, you know, Houston that floods. But again, in my 
opening statement, 98 percent of the counties in America have 
flooded. So it is just not coastal communities, it is any 
community that really----
    Ms. Norton. Is that new, that virtually every community has 
flooding? Is that new in the United States?
    Mr. Gaynor. We kind of say laughingly that if it rains, it 
floods. Just because you are not on a coast doesn't mean that 
you won't flood.
    And so one of the things we ask individuals, homeowners, is 
assess your risk where you live. Are you at risk of flooding?
    And if you are at risk of flooding, do you have flood 
insurance? Again, it is the best defense against flooding. It 
will get you back to normal quicker than a FEMA Individual 
Assistance program where, again, the average in Hurricane 
Harvey was only about $6,000. I would rather give you that 
check for $250,000 because you insured your home, and maybe 
another $250,000 because you insured the contents of your home. 
That is how we really want to make a difference in the United 
States, is close that insurance gap so people are best 
protected.
    The FEMA headquarters is in a rented building in 
Washington, DC. We are in a commercial building. Across the 
street from me is the Education Department. Because my building 
is commercial, it is insured. The building across the street 
from me is a Federal building which is not insured. So, again, 
we really need to take a hard look at what we insure in 
America, to include homes.
    What are we doing to address local problems? I would be 
happy to connect with the DC local emergency managers to see 
what--how they are doing it, because it really is--again, back 
to shared responsibility, they have a mission to make sure 
that, in this certain specific case, that they reduce or 
minimize flooding in Washington, DC. So I would be happy to 
connect the both of you to see what they are doing in tangible 
terms to prevent that from happening.
    Ms. Norton. Thank you, Madam Chair.
    Ms. Titus. We now recognize Miss Gonzalez-Colon for 5 
minutes.
    Miss Gonzalez-Colon. Thank you, Madam Chair, and good 
morning to Mr. Gaynor.
    And first of all, I want to say thank you for always 
answering my calls, my texts regarding many of the issues 
regarding Puerto Rico and the two previous disasters, Hurricane 
Irma, Hurricane Maria, and now the earthquakes at the 
southwestern part of the island. So, I mean, for me, it is 
important every time we do have cases, as you may know, that 
you are always there. So I appreciate that. It has made a big 
difference.
    I was taking notes of Chairman DeFazio's comments in terms 
of the roundtable we had with the mayors in Puerto Rico when 
the Committee on Transportation and Infrastructure went there, 
as well as many other Members of Congress. And many of them are 
still wondering when the major--approvals for start to 
permanent works, mitigation programs are going to happen. Can 
we have the current rate of Maria projects, Hurricane Maria 
projects approval, in terms of municipalities in the State 
government? Do you have that information?
    Mr. Gaynor. I just missed--are we talking about Maria or 
earthquake----
    Miss Gonzalez-Colon. Maria, Maria.
    Mr. Gaynor. And I just----
    Miss Gonzalez-Colon. Hurricane Maria. OK, many of the 
mayors in Puerto Rico, the municipalities, are still asking 
when the major projects are going to be approved. So I am 
asking if you do have a rate of approval of those major 
projects.
    Mr. Gaynor. Again, I was down, I met with you and the 
Governor of Puerto Rico, the staff of COR3, and my leadership 
down there, Alex Amparo, on many of these topics. It is--and we 
met with mayors, as you all know.
    And part of our goal was to make sure--and there are many 
small projects that we want to get on the street. Our goal was 
to get 200 small projects a month approved. And we are--last 
month I think it was 211. It will grow. And those small 
projects directly impact the 78 municipalities on Puerto Rico. 
It will help those mayors show progress and recovery. We are 
committed to making sure that we keep that pipeline open, and 
get those small projects into those communities where it will 
make a big difference. Not really big projects, but projects 
that make a difference in a small community anywhere in Puerto 
Rico.
    So, again, it is one of my priorities, and it is a priority 
of Mr. Amparo's, to make sure that we deliver on what we said.
    Miss Gonzalez-Colon. Thank you. And maybe not for now, but 
if you can, submit to the committee data regarding the approval 
and disbursement on emergency funds still pending, as well as 
approval for start of permanent work and mitigation project 
spending. And if we do have that rate of all the projects that 
are being approved, not just the small projects, but the main 
projects, because that is still one of the concerns.
    I do know that the new Governor requested a change for the 
alternative procedure. And, my question is, is the new model 
now fully implemented on the island? Is that better, in terms 
of taking cases more easily?
    New delivery model. I think you need to turn on your mic.
    Mr. Gaynor. It is on.
    Miss Gonzalez-Colon. OK, perfect.
    Mr. Gaynor. We are committed to that model. It works in 
Puerto Rico. We didn't have it from the beginning, we kind of 
did it midstream. But I think now it shows results.
    And I always smile when a mayor knows the exact process in 
that. I think in Puerto Rico they call it the snake--where 
their projects are, what phase they are in, and when they can 
expect it to, again, be a tangible result at the end of that 
process.
    It has been a long slog in Puerto Rico, and I get that. And 
recovery is never fast enough for disaster survivors, and it is 
not fast enough for us.
    I think we have made major headway in the past 6, 8 months 
on policy, process, rules. And you will see here shortly major 
projects be approved and on the street. We have done all the 
work, we have done all the scoping, we have settled on all the 
rules about how we are going to treat all these different 
sectors, whether it is the electrical sector, or health, or 
education. All those rules have been agreed to. And now you 
will see that model put out results. And I think that is what 
we are all looking for.
    And again, we are committed to the recovery in Puerto Rico.
    Miss Gonzalez-Colon. Thank you. Do you see that happening 
before the third anniversary of Maria in September of this 
year, major projects being expedited or beginning?
    Mr. Gaynor. I do. I do. I think you will see the first 
major projects shortly. Yes, ma'am.
    Miss Gonzalez-Colon. Thank you, Madam Chair.
    Ms. Titus. Now I recognize Representative Johnson for 5 
minutes.
    Mr. Johnson of Georgia. Thank you. Administrator Gaynor, 
the President's fiscal year 2021 proposed budget cuts the 
Disaster Relief Fund by over $12 million, an almost 70-percent 
decrease from DRF's fiscal year 2020 allocation. How would the 
proposed budget cut affect FEMA's ability to carry out a 
culture of preparedness, ready the Nation for catastrophic 
disasters, and streamline the complexity of the agency?
    Mr. Gaynor. Yes, sir. I think the cut is reflected in FEMA 
receiving a supplemental, either in the budget year or the 
previous budget year, that made us redo the math.
    Today I have $42 billion in the DRF. We are healthy when it 
comes to having enough money to deal with all the disasters 
that are on the books, and all the disasters or--the next 
coming hurricane season. We have enough money in there to 
respond to and recover from a number of disasters that we are 
working on, or a disaster that may beset us in the next year.
    Mr. Johnson of Georgia. Thank you. President Trump's budget 
also calls for a $163 million reduction to the Flood Hazard 
Mapping and Risk Analysis Program. Since flooding is the most 
common and most costly disaster to repair from, how would the 
agency plan to execute flooding mitigation plans in lieu of 
such drastic cuts?
    Mr. Gaynor. Yes, sir. And again, I think the cut is just 
reflective of how much progress we have made on flood mapping. 
We have 100 percent of the highest risk flood areas in the 
United States mapped. We have about one-third of the entire 
catalog mapped of the United States. There is another third 
that are at low risk, areas that have no people in them, or 
have no risk of flooding that would impact either facilities or 
individuals. We will work through that. And then we have 
another third that we have to map.
    I think we have sufficient funding to do mapping over the 
next couple of years. We actually map about 20 percent a year. 
And so maps get refreshed every 5 years. So we do 20 percent of 
the catalog every year, and then every 5 years the entire 
catalog is updated.
    Mr. Johnson of Georgia. Sure. So----
    Mr. Gaynor. We could always do more, but right now I think 
we made good headway.
    Mr. Johnson of Georgia. But is----
    Mr. Gaynor. We digitized the majority of these maps today--
--
    Mr. Johnson of Georgia. Well, is it your testimony that 
$163 million cut from the Flood Hazard Mapping and Risk 
Analysis Program would not hurt your efforts?
    Mr. Gaynor. I think part of it is----
    Mr. Johnson of Georgia. Is that your testimony?
    Mr. Gaynor. I think, for us, it is a capacity issue.I 
think, for the amount of work we have in front of us, the 
amount of people who are assigned to it, the amount that we 
have today is sufficient.
    Mr. Johnson of Georgia. Well, let me ask you this question, 
sir, and thank you.
    As I know you--well, one of the most prevalent issues 
facing the agency currently is an understaffed workforce. In 
response to Chairwoman Titus' question you stated that you seek 
to create a diverse, ethical, and integrated workforce. Can you 
expound on how you plan to achieve this objective, and explain 
why you believe that a diverse workforce is important in 
enabling FEMA to accomplish its mission?
    Mr. Gaynor. Well, if I answer the last one first, because 
we need to reflect what the country looks like. And so having a 
diverse workforce is important to us.
    This past October--and one of the Members referenced 
``Publication 1,'' which is, ``We are FEMA,'' and it really is 
about who we are, what we do, how we deliver our services, and 
what we believe in. And so I have doubled down on our core 
values of compassion, integrity, respect, and fairness. That is 
how I want every employee to operate. If you use those core 
values to operate in sometimes a complex, difficult, 
challenging environment, you will never make a wrong mistake, 
or have a wrong solution.
    We need to invest more in our incident workforce. Today I 
have enough personnel to respond to anything in the United 
States. We have a challenge on the recovery side. Again, I 
think Member Graves referenced 640 open disasters dating as far 
back as the year 2000. So there are a lot of open disasters. 
Last year flooding was prevalent across the Midwest. About 70 
brandnew disasters last year. So we need to do a better job in, 
again, telling people who we are, so they want to join our 
ranks.
    Again, I believe I have the best mission in the Federal 
Government, helping people before, during, and after disasters. 
I need to attract those kind of people to come to FEMA so I can 
deliver those services to the American people. We are working 
hard at it, to make sure that we double down on how we recruit, 
where we recruit, and how we retain people. It is important to 
our mission. We can't do it without people. And that is the 
bottom line.
    Mr. Johnson of Georgia. Thank you, sir.
    I yield back.
    Ms. Titus. Thank you. Now I recognize Mr. Palmer for 5 
minutes.
    Mr. Palmer. I thank the chairman.
    Administrator Gaynor, this is an issue that I had brought 
up, I think, on the Oversight and Reform Committee, and I want 
to revisit here, about the FEMA trailers. And there was an 
Associated Press report from December 2017 that detailed FEMA's 
management of trailers leased to disaster victims, and noted 
that the Federal Government spends up to $150,000 for these 
mobile homes, which are used for about 18 months, and then 
auctioned off for considerably less than what FEMA pays for 
them.
    Since this report initially came out--and I assume you are 
familiar with that report--has FEMA made any changes to, first 
of all, the process by which they procure these mobile homes?
    And they are not your fancier mobile homes, to start with. 
That price seems rather high, but--and your disposition of them 
afterwards.
    Mr. Gaynor. Yes, sir. We are cognizant of the cost of all 
sorts of disaster supplies or materials.
    Mr. Palmer. I have only got a little bit of time, so I want 
to really drill down on this.
    So what concerns me is I understand that there would be 
some issues with storage or parking these things after you use 
them, but does it make sense to pay $150,000 for a housing 
unit, and then auction it off for prices below $10,000?
    Mr. Gaynor. Sir, there is a certain cost of doing business 
in emergency management. So we buy supplies. We buy water. We 
buy food. We buy housing units to have, to be ready. And in 
some cases you may not have enough, and you have to go out to 
the market to buy more. And so you--sometimes you----
    Mr. Palmer. OK.
    Mr. Gaynor [continuing]. Pay a premium. But our mission is 
to deliver.
    Mr. Palmer. I understand, but--and I am trying to help you. 
This is not--just from a practical perspective, that if you 
paid this for these mobile homes and they are used for 18 
months, you know, does it make sense to have an inventory, or 
does it make sense to go out and have to pay a premium for 
these, when you could probably buy a more upscale unit for 
less?
    I am trying to figure out if there is a way that we can 
manage this, and not cost the taxpayer so much money.
    Mr. Gaynor. Yes, sir. The root of this problem, I think, is 
post-disaster housing across the United States, so just not 
California or other places. Post-disaster housing is an issue. 
We are working with States and counties and localities to help 
improve post-disaster housing, because it will minimize the use 
for these trailers and mobile housing units.
    I think, for me, these are the last-resort kinds of things 
that we want to implement.
    Mr. Palmer. Right.
    Mr. Gaynor. I think no one wants to move into a travel 
trailer after living in a, you know, 2,000-square-foot home. We 
want to put those disaster survivors in something----
    Mr. Palmer. That is not what I am asking. And maybe I need 
to put this in writing. I am just trying to figure out, does it 
make sense to pay $150,000 for a unit, use it one time for 18 
months, and then auction it off for less than $10,000? Does it 
make sense to inventory those and refurbish them so that they 
can be used again?
    And--first of all, so that you are--you have some level of 
preparedness the next time you need something, instead of 
having to go out and pay these high prices.
    Also, in regard to debris removal, Alabama suffered a 
horrendous swarm of tornadoes on April 27, 2011. My hometown of 
Hackleburg, Alabama--the F5 was named the Hackleburg tornado--
was wiped out. And FEMA's report said that there was about 10 
million cubic feet of debris that was removed. Some of us think 
that it was a good bit more.
    Before I was in Congress, I ran a think tank, and I was 
looking at this. FEMA apparently--it almost looked like a 
single-source bid for debris removal, and it was about $40 per 
cubic yard, when--I know some of the counties refused to go 
along with that bid. The State has to pay, I think, about 25 
percent of that cost. And they were doing it for $10 to $15 a 
cubic foot. If your estimate of 10 million cubic feet is 
correct, that would have been $400 million; $100 million of 
that would have come from the States.
    When you do debris removal, do you have multiple companies 
that you go out for bid for, or is there one or two companies 
that you rely on all the time?
    Mr. Gaynor. So we don't do debris removal.
    Mr. Palmer. I know. You bid it out.
    Mr. Gaynor. No. Well, we reimburse for debris removal. So--
--
    Mr. Palmer. Correct.
    Mr. Gaynor. So the contract for debris removal--if we just 
want to keep it simple--from a State point of view, the 
contract is between the State and the contractors or the 
vendors that they hire. So they have to follow Federal 
procurement laws to make sure that they do it correctly, to 
make sure that it is eligible, and reasonable costs. And only 
then do we reimburse.
    But we have no contract between debris removal vendors. 
That is strictly between, in this case, the State and the 
vendors that they select.
    Mr. Palmer. Is the Army Corps of Engineers involved in this 
process?
    Mr. Gaynor. You can use----
    Mr. Palmer. Someone----
    Mr. Gaynor. You can----
    Mr. Palmer [continuing]. Gave them this contractor, and led 
many of them to believe that they needed to go this route at 
$40 a cubic yard, when I know for a fact that they were--the 
counties who refused to do that were getting it done for $10 to 
$15 a cubic foot. I mean a cubic yard.
    So that may not be something that you have looked into, 
but, you know, we keep looking at all these disasters in the--
and Madam Chairman, the cost keeps going up and up and up. And 
I am all for getting in there and helping people. I really am. 
But I think we need to maximize every dollar to get it to the 
people that need it.
    And also the tremendous burden that is imposed on States, 
we need to be aware of that, because they are not the--it is 
not just the Federal Government, it is the States, as well.
    I appreciate your indulgence, and I yield back.
    Ms. Titus. I now recognize Mr. Garamendi for 5 minutes.
    Mr. Garamendi. Thank you. The gentleman is quite correct. 
It is the regulations that basically require the hiring of a 
company that has previously done it.
    In California, in one of the fires, it was a Tennessee 
company that came all the way to California to do it at a very, 
very high cost. And this does need to be looked into. Thank you 
for raising that question, and we will follow through.
    Administrator Gaynor, thank you for being here, and taking 
all of this, these questions. We have heard from many 
communities in my area that the financial recovery projects, 
the permanent work, they cannot afford the upfront cost. 
Waiting for reimbursement from FEMA is just an impossible 
situation, and often they just let it go.
    In the 2013 Sandy Recovery Act, Congress established the 
so-called section 428 alternative procedures under FEMA's 
Public Assistance program, allowing your agency to fund major 
disaster recovery projects, so-called permanent work, up front, 
in exchange for the State accepting a binding cost estimate for 
the project. However, many localities facing these cash flow 
problems following disasters do not participate in the section 
428 alternative procedures.
    My question to you, does FEMA agree that section 428 is 
underutilized by the States?
    And why might that be the case?
    Mr. Gaynor. Yes, sir. Well, it is not mandatory, I think, 
is the first case. It is not mandatory that you use it. 
However, we champion section 428 wherever we go. And it is a 
better way to do business. And really, it is the difference 
between section 428 agreeing on a fixed cost, and the 
traditional way is actual costs. And I can give you an example.
    There is a disaster in the South that we are still working 
on. And it is from Katrina, it is 14 years old. It is still 
open. I am still paying on actual costs, because with the 
actual costs there is no incentive to actually close a disaster 
or speed the project, right? Because the Federal Government 
will pay the entire bill on that. Section 428 is fixed cost. We 
are--like building a house, you agree on the cost of that 
house, and if it runs over, then--and again, I just use the 
State--the State is on the hook for that overage. But if it is 
under, you get to use that money for other projects.
    And I think that--and again, that is a great incentive to 
speed recovery and to save taxpayer dollars.
    Mr. Garamendi. You have that right. And by raising the 
issue of cost--you and I had this discussion beforehand--if we 
were to move more aggressively in this, and you had a cost 
estimate up front, it was agreed that that would be the cost 
the county or the State would then proceed, that then would 
allow the FEMA to make periodic payments, for example, when the 
contract was signed, 10 percent, and then when some of the work 
was done, periodic payments. And at the end, you do the audit 
and get it done.
    Mr. Gaynor. Yes, sir.
    Mr. Garamendi. I really would urge you to move in that 
direction, and provide for these periodic upfront costs. It 
might be better for everybody, and your 14 years at Katrina 
would not happen again.
    Mr. Gaynor. Yes, sir.
    Mr. Garamendi. So please give that your consideration, and 
we will work with you to accomplish that.
    And by the way, I have a piece of legislation that would 
urge you to do it even more, and that is H.R. 6071. Write that 
one down. We are coming to you to get it done.
    Wildfire mitigation, a clarification on it. Presently, you 
can relocate buildings that are in a hazard area. Would you 
please confirm that FEMA's current interpretation of the 
Federal regulation that allows you to do this, to relocate 
destroyed facilities due to the risk of wildfire or other 
hazards, not just floods?
    Presently, you seem to be focused on floods and not 
applying this relocation alternative to fires. Tell me that is 
not the case.
    Mr. Gaynor. Well, I am not going to give you a definitive 
answer, because I would have to go research it. But I think, 
when you think about mitigation, we would not want to, just in 
a general sense, rebuild in the same place the same structure 
as we previously had.
    So, you know, section 428, combined with mitigation, I 
think we want to build smarter, build up to current code 
standards, and, you know, look in the environment that we are 
building in.
    So I owe you an answer about how we apply that when it 
comes to wildfire.
    Mr. Garamendi. Yes. I will look forward to your responses 
to both of these over time.
    Mr. Gaynor. Thank you, sir.
    Mr. Garamendi. Thank you for your work.
    Ms. Titus. Thank you. I now recognize Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Madam Chair, and thank you 
for having this hearing.
    Congratulations on the appointment, Mr. Gaynor. I want to 
start just by asking you if you recall a letter that I sent to 
you in July that deals specifically with flood insurance. I 
wanted to get information on the National Flood Insurance 
Program and FEMA's new initiative of Risk Rating 2.0. I 
expressed my strong concerns that FEMA's new risk pricing model 
that is being developed currently is not fairly being 
communicated with local municipalities, and being transparent 
to the public.
    And I did ask several questions, and you have mentioned 
that everyone should be under a flood insurance plan. And one 
of my questions is what steps are you taking to ensure that all 
homeowners with a federally backed mortgage are enrolled in 
flood insurance?
    So I want to know--I have been waiting for months--if you 
recall the letter, and if you have any answers to those 
questions today.
    Mr. Gaynor. I can't say that I have personally seen that 
letter. What is the date on it?
    Ms. Mucarsel-Powell. It was directed to you July 11th, 
2019.
    Mr. Gaynor. It seems overdue to me. We try to get back 
pretty quickly on letters from Members.
    Ms. Mucarsel-Powell. I would appreciate that.
    Mr. Gaynor. I will look into that.
    Ms. Mucarsel-Powell. Thank you.
    Mr. Gaynor. And, you know, we took a pause on rates, 
because we wanted to make sure we did it right, because there 
is lots of sensitivity across the Nation about the premium, and 
against risk.
    Ms. Mucarsel-Powell. Exactly.
    Mr. Gaynor. We want to make sure that----
    Ms. Mucarsel-Powell. Which is why I think it is important 
to be communicating with the local communities, because they 
are extremely concerned, and they want to understand what 
process you are following as you establish the new Risk Rating 
2.0 plan.
    Mr. Gaynor. Yes, ma'am. And again, this hasn't been updated 
to since the 1970s.
    Ms. Mucarsel-Powell. Yes.
    Mr. Gaynor. And we are eager to actually, you know, move 
this along so it actually reflects risk.
    Ms. Mucarsel-Powell. Thank you, Mr. Gaynor.
    Now, you were talking about making sure that people have 
flood insurance. And just to give you an idea, most people 
assume that people that are living in coastal communities are 
extremely wealthy, and that is not the case. We have 
hardworking Americans living in my district along the Keys, and 
also in Miami-Dade County. And in the Keys their average annual 
premium is $2,278 a year, so much higher than what you stated 
of $700 a year. And it is definitely a concern, as you start 
developing premiums under the Risk Rating 2.0.
    So I wanted to ask you, what steps are you taking right now 
to ensure affordability under this new plan that you are 
formulating?
    Mr. Gaynor. Yes, ma'am. So, again, it goes back to risk. 
And I will try to keep it simple. So if you live on the water, 
you would assume that you probably have the highest risk of 
something bad happening to your home. If you live right on the 
beach, and the ocean is right there, you probably have the 
highest risk.
    Some of our maps don't reflect that in a really elegant 
way. We have these hard-drawn lines where, once you go over a 
certain line, the risk really drops off a cliff, and that is 
not reasonable. And so we want to make sure that--if you have 
the highest risk, you should probably pay the highest premium. 
And then, as you work your way to less riskier locations, that 
you have lower premiums.
    And again, our maps don't help us get there. But one of our 
goals is to make those maps graduated so it really reflects 
reality. We are looking at what does it cost to rebuild a 
house----
    Ms. Mucarsel-Powell. That is good to hear. Mr. Gaynor, I am 
going to cut you off because I have so many questions. Thank 
you so much. We definitely have to meet after this hearing----
    Mr. Gaynor. Absolutely.
    Ms. Mucarsel-Powell [continuing]. To discuss that issue 
more.
    But also, you are saying that you have enough money, that 
you are not really concerned. We had Hurricane Irma back in 
2017. It is going to be almost 3 years this summer, and we are 
still waiting to get the reimbursements for my community.
    Just to give you an idea, the city of Key West is still 
waiting on $3 million to be obligated. The city of Homestead, 
waiting on nearly $12 million. Florida City, $4 million. Miami-
Dade County alone is waiting for over $100 million.
    While I thank you for the funding that we have received 
after my requests, I just need to hear from you that we are 
going to be receiving those reimbursements quickly, because we 
are now entering another hurricane season. This was a hurricane 
category 4. Scientists are talking about categories 5, 6, and 
higher. And I am very concerned that we are not prepared once 
again. And we haven't even gotten those reimbursements.
    Mr. Gaynor. Yes, ma'am. My staff will go connect with you, 
and specifically what reimbursements are you waiting for.
    But typically, we reimburse the State, and the State 
actually does all the validation of the projects, making sure, 
again, they are eligible, making sure they are reasonable, 
making sure all the documentation is there. And then----
    Ms. Mucarsel-Powell. The State hasn't received those funds 
yet. So it is still sitting at FEMA.
    Mr. Gaynor. I will----
    Ms. Mucarsel-Powell. And last, because my 5 minutes are up, 
and I am very concerned that we are not following all the 
appropriate procedures, and policies, and all the different 
Federal agencies to prepare for coronavirus.
    And so I want to ask, specifically, what conversations have 
you personally had with the Secretary of Health and Human 
Services as we are entering into this outbreak here in the 
United States?
    Mr. Gaynor. Yes, ma'am. I have personally not had any 
conversations with----
    Ms. Mucarsel-Powell. You have not had a----
    Mr. Gaynor. But that doesn't mean----
    Ms. Mucarsel-Powell [continuing]. Seat at the table in 
these--you have not been at the table, discussing what you need 
to do for emergency response?
    Mr. Gaynor. The Secretary of Homeland Security and his 
Deputy have been at the table on the task force. We are in 
support of HHS. So at the staff level, that is where my focus 
is right now, on making sure that I support the Secretary in 
all the things that he needs support for.
    So again, interagency coordination, planning, analysis, all 
those things that we are really good at, we are supporting him 
right now.
    Ms. Mucarsel-Powell. And you have all the supplies you need 
to provide assistance to areas that would be hit by this 
outbreak from one day to the next? Are you ready?
    Mr. Gaynor. So when you say supplies, what do you mean?
    Ms. Mucarsel-Powell. Meds, tents, food, water.
    Mr. Gaynor. So we have warehouses across the country with 
all sorts of commodities for all sorts of--it is an all-hazard 
approach. So we have commodities from coast to coast. We have 
commodities on Puerto Rico. We have----
    Ms. Mucarsel-Powell. You are ready?
    Mr. Gaynor [continuing]. On Hawaii----
    Ms. Mucarsel-Powell. Do you feel ready?
    Mr. Gaynor. We are ready every day----
    Ms. Mucarsel-Powell. Is FEMA ready?
    Mr. Gaynor. FEMA is ready every day, because every day----
    Ms. Mucarsel-Powell. That is what I want to hear.
    Mr. Gaynor. And the simplest term is earthquake day, right? 
It could happen tomorrow. So we are ready. We are ready to 
support HHS, who is in the lead for the COVID-19. And until 
that changes, we will remain in support.
    Ms. Mucarsel-Powell. Thank you, Mr. Gaynor.
    Mr. Gaynor. You are welcome.
    Ms. Titus. Thank you. I now recognize Mrs. Fletcher for 5 
minutes.
    Mrs. Fletcher. Thank you, Chairwoman Titus. Thank you for 
holding this hearing.
    Thank you, Administrator Gaynor, for being here and taking 
the time to testify today. You have already touched in your 
testimony a little bit about the area I represent, and some of 
the complications we saw after Hurricane Harvey.
    I represent Texas, the Seventh Congressional District in 
Houston. And my district had some of the most affected areas 
during Harvey and in the response. And I know, from that 
experience and from being here, that FEMA personnel are 
stretched thin, are managing responses across the country, 
especially during Harvey. We had wildfires, we had other 
hurricanes. It was a tremendous effort. And we know that we ask 
the agency to do a lot, and often with limited resources, and 
appreciate the good work that FEMA did in our community and 
across the country.
    That said, I think that most of us on this committee still 
see room for improvement, as I think you do, as well, in how we 
respond to natural disasters. And often the recovery is just 
slower than we need it to be.
    In our experience--and I kind of want to touch on some of 
the things my constituents have told me were particular 
challenges for them, because what I would like to see--and I 
think the purpose of this hearing is to talk about ways we can 
improve and streamline disaster response.
    And, you know, we have already done legislation that has 
gone through this committee to try to help with some of the 
challenges that we have seen. But the greatest concern that I 
hear from my constituents is that we just haven't made enough 
progress in preparing for future storms, and that there are a 
lot of confusing processes in the disaster recovery process.
    So I am hopeful that implementation of DRRA will lead to 
more resilient communities and processes before catastrophic 
events happen. But I would like you to touch on a couple of 
things, and I have only got a few minutes left, so I am just 
going to put them out there. And if you can address these, that 
would be great.
    One, can you talk a little bit about how FEMA plans to 
incentivize investments and reduce risk from a pre-disaster 
perspective?
    And right now, the other thing that really seems to be a 
challenge to me that we are working on--and I would love your 
perspective on--the disaster response and disaster preparedness 
are currently split between a variety of agencies. I wrote down 
earlier you said 19 agencies and 90 different disaster 
programs. So that is often incredibly confusing for the 
disaster victims who are trying to navigate it, often with 
limited resources after a storm.
    So what do you see as the largest gaps when it comes to 
communicating and coordinating with those agencies, whether it 
is the SBA, or HUD, or even the Army Corps, following a 
disaster?
    And what tools do you need that you currently lack to close 
some of those gaps? What can we provide that could help close 
those gaps?
    If you could just address kind of that general topic for 
the next couple of minutes, that would be great.
    Mr. Gaynor. Yes, ma'am. So the first question about how do 
we incentivize better behavior, I guess, when it comes to being 
prepared--and I will go back to what I touched on before, is 
investment in pre-disaster mitigation.
    We have had a number of catastrophic disasters since 2017 
and 2018. It is bad, but, you know, it could be worse. And we 
hope that never happens.
    But I think the passage of DRRA allowed us to set aside 6 
percent of all disaster costs to do pre-disaster investment or 
pre-disaster mitigation. That is a game changer, in my point of 
view. We are going to actually take money before disaster 
happens, and invest that in making our infrastructure more 
resilient.
    And the money in the new program, BRIC, Building Resilient 
Infrastructure and Communities, is aimed at community 
lifelines. These are seven community lifelines that, if any of 
these are interrupted like telecommunications, energy, if any 
of those are interrupted, life changes in that community.
    And so, can we invest this money, this pre-disaster money, 
in making those things more resilient? So when a disaster 
happens, we bend but we don't break, and we snap back to some 
better result than if we had not invested in pre-disaster. So 
that is the best thing that we have done, locally.
    But that is just not a Federal responsibility, that is a 
share responsible.
    Mrs. Fletcher. Sure.
    Mr. Gaynor. So I would encourage localities and States and 
counties and Tribes and Territories to invest in their own pre-
disaster mitigation programs, because, again, this whole thing 
works best when localities and States, Tribes, and Territories 
all work together.
    Mrs. Fletcher. Sure, and I think that goes to the 
coordination point. So with the time we have left, can you talk 
a little bit about coordinating among the Federal agencies, and 
helping----
    Mr. Gaynor. Yes, ma'am.
    Mrs. Fletcher [continuing]. Victims get the help they need?
    Mr. Gaynor. You know, if I think about coordination today, 
I think about Puerto Rico and the, you know, big disaster, and 
many different full-time Federal agencies down there working 
together, combining all their resources together to drive that 
outcome-driven recovery. Right? Not just using FEMA money for a 
certain project, and using HUD money for a certain project, but 
trying to figure out how do we leverage all this great Federal 
money and opportunity into a better outcome. We are doing it in 
Puerto Rico. We are doing it in other places across the 
country. We need to be better at it.
    You know, and one is we are working with HUD to--how do we 
close the gap on temporary housing repairs and permanent 
housing repairs? That time in between is too long, it is not 
fully integrated. And we want to change that. So any help on 
any of those topics, I would enjoy help in making it less 
complex and speed recovery.
    Mrs. Fletcher. OK. Well, thank you. I see that I have gone 
over my time. So I encourage you to continue to coordinate, and 
I really encourage you to look at the experience of recovery 
from the perspective of the disaster victim in trying to help 
that coordination. And we are going to do what we can to try to 
help that, as well.
    Thank you so much, Madam Chairwoman. I yield back.
    Ms. Titus. Thank you. We now recognize Mr. LaMalfa for 5 
minutes.
    Mr. LaMalfa. Thank you, Madam Chair, for allowing me to 
help keep you company here in the committee today. And thank 
you, Administrator Gaynor, for appearing in front of us.
    First of all, I want to say thanks, heartfelt thanks, to 
how much help FEMA has been in northern California over three 
different disasters in the last 3 years, really, starting with 
the Oroville Dam spillway situation, which could have been a 
lot worse, but, indeed, required an amazing amount of cleanup 
and restoration of the infrastructure there. Then the Carr Fire 
west of Redding, California, in the north, and the Camp Fire, 
as we know, from the Paradise area in northern California. So 
you have been extremely helpful on that.
    There are just a few nuances I am going to go over with you 
on how some things can be executed.
    So going to the Carr Fire situation, which--a lot of that 
happened on the Whiskeytown National Recreation Area, a park 
west of Redding, and a particular lake there called Rainbow 
Lake nearby.
    And the particular issue we are talking about is something 
called the Messelbeck Dam. The issues there start with the fire 
that wiped out so much vegetation on the national park there, 
and the debris that subsequently, with the record rainfall we 
had--which in itself was a disaster, some of the effects of the 
rain were a disaster--swept much sediment into the lake and the 
outlets there that would help to keep the lake level, you know, 
the pipes and devices there to keep--to monitor--keep the lake 
level as they see fit. A lot of sediment there.
    It had been fairly well maintained, but was overwhelmed by 
all this. So FEMA was asked if they could help with the 
clearing of some of that silt and sediment in order to make 
those functional. And my understanding is, on two different 
occasions, they have denied that application for the assistance 
from the 2019 rainstorms subsequent to the fire, claiming they 
didn't have the information on the sediment levels before the 
disaster, and that maintenance has been done.
    So what we do have is information from our State experts at 
CAL FIRE, who, a lot of times, work hand in hand with--about 
the conditions that were there of the maintenance of the 
project, the maintenance of those drains and such.
    So my question is, why does FEMA disagree with local 
experts on that, State experts on that?
    And then how would a small community service district like 
is up there in the place called Igo and Ono, how in the world 
would they ever be able to take care of all that sediment after 
a fire, being a small district?
    And so I will stop there, and see what do you think of 
those thoughts.
    And then there is also a question on the 60-day period 
after a disaster, too.
    How would a local district do that?
    Why would FEMA disagree with the assessment by the State 
CAL FIRE organization?
    Mr. Gaynor. Yes, sir. I do not know the specifics of that 
particular project or that particular issue. I would be happy 
to get with my staff, get with Bob Fenton, who is the----
    Mr. LaMalfa. Yes, I have worked with him, yes.
    Mr. Gaynor [continuing]. Regional administrator, and look 
into that, and give you and your staff feedback about 
decisionmaking. And I would be happy to speed that along and 
get it done here in the next couple days.
    Mr. LaMalfa. I appreciate that, because, again, it is very 
important. There is really no way the local service district 
could do that. And it is--you could have a situation where the 
dam--I mean, I guess we are lucky, in a way, we have had almost 
a drought this year. But the dam could overtop with the 
inability to regulate the flow that way.
    So also on the Whiskeytown and the Carr Fire situation, a 
private site had been cleared around there for tree and debris 
and such, and they had a contract do that. But there was also 
nearby a public building, a public facility, which was a police 
station and park ranger's office, also very important to that 
operation. FEMA only did the work on the private building. They 
would now have to send a second contractor a second time to do 
cleanup on a public site, rather than one that--when they were 
there, 40 yards away, doing a private facility.
    Why wouldn't they do all in one, when they have the 
opportunity, when they see--especially since it is a public 
building right nearby? Why would they not do----
    Mr. Gaynor. Again, sir, I don't know the details, but I 
would be happy to get back to you on some of that 
decisionmaking.
    Mr. LaMalfa. OK, because that would be a cost-saving 
measure and a time-saving one, as well, because they end up 
doing both.
    OK, lastly, when we are looking at fire disasters, it 
doesn't appear that FEMA has been quite as geared towards 
dealing with forest fire disasters, wildfires, as maybe, 
unfortunately, versed on hurricanes and floods and things of 
that nature. So burnt trees, they are still standing, but will 
be a hazard. In my view, they should be counted as a debris 
that would be in an area that FEMA should be looking really 
hard at. Delayed damage from sediment, as we talked about with 
the Carr Fire in Redding and Whiskeytown, and then into the 
watersheds around the Camp Fire and Redding should be looked at 
more closely, too.
    I do have to give you kudos for the clearing that was done 
at the Paradise, Magalia, and the Concow areas up there on 
clearing out the lots where buildings had burned down and there 
is a lot of toxic material in a footprint of a building. So 
FEMA made the decision to do that just because it was 
important, and pay for 90 percent of it. So that was very 
important, and much appreciated by the community there.
    But other sediment issues and other issues having to do 
with wildfire recovery, I would just ask FEMA to work with us 
more on having a definition on how you deal with the post-
wildfire disaster problems in--you know, other than--
unfortunately, your specialty lately has been a lot of 
hurricanes, a lot of floods, too.
    And I say that with all appreciation for the efforts you 
have made in the area, and I know you have a lot to worry 
about, you are stretched pretty thin. But these are just things 
I think we can fine-tune, and I would love to have that 
opportunity to work with you more on that. OK?
    Mr. Gaynor. Yes, sir. We will get back to you on all those 
things.
    Mr. LaMalfa. OK. Thanks very much.
    Mr. Gaynor. Thank you.
    Mr. LaMalfa. Thanks for your time.
    Ms. Titus. Thank you. Apparently, while you have been 
sitting here, Mr. Administrator, your Atlanta office has found 
evidence of someone exposed to coronavirus, and has closed down 
for 2 weeks with people teleworking, waiting to hear from more 
guidance from HHS.
    Have you gotten any word about that?
    Mr. Gaynor. Yes, ma'am. So late last night--this is a 
suspected case of coronavirus, no test results back yet. But 
out of an abundance of caution--back to my priorities to 
preserve the force--it really coincided with what we are doing 
today across the agency. We are actually doing an agencywide 
connectivity telework drill today. So fortunately, it fell into 
that. So most employees were either going to telework today, or 
work from alternate locations.
    And again, we want to make sure that I preserve the force, 
so I can deliver those mission-essential functions.
    So it happened in region 4 today. It is going to happen in 
other locations across the country. It is going to happen here 
in Washington, DC. And my staff and I have been working to make 
sure that we have a balanced response to some of these 
challenges we are going to have. Again, fluid, dynamic, you 
know, the first instance is not like the second instance.
    And so this is again--I have my leadership working on it 
right now to make sure we adapt to the changing circumstances 
and we make good decisions.
    Ms. Titus. Thank you.
    Ms. Plaskett, you are recognized for 5 minutes.
    Ms. Plaskett. Thank you, Madam Chairwoman. And thank you, 
Mr. Gaynor, for being here. Of course, thank you for your 
service.
    Before coming to FEMA--and I know you have an incredible 
task on your hand, so many people relying on your agency 
immediately after storms, after disasters. And that is a heavy 
burden I know that you have, but I think you are very able for 
the job, and we are grateful to have you there.
    I wanted to ask you a couple of questions. One was about, 
first, I understand now that the Virgin Islands has been put 
under a Federal Coordinator that is working with Puerto Rico.
    Can you tell me what was the reason for--because, 
initially, we were told that we would not have a Federal 
Coordinator, that we were doing things appropriately. And now 
we have a Federal Coordinator underneath Puerto Rico. And while 
my sister, Jenniffer Gonzalez-Colon, knows that I love Puerto 
Rico, they are our nearest neighbor, they are a behemoth in 
comparison to us, and can suck a lot of resources and attention 
that we would otherwise have gotten.
    Mr. Gaynor. Yes, ma'am. So I had visited both Puerto Rico 
and U.S. Virgin Islands. I went down to the U.S.----
    Ms. Plaskett. We are America's paradise. They are Puerto 
Rico, you know, Land of Sun.
    Mr. Gaynor. Yes, ma'am. I don't want to get into that----
    Ms. Plaskett. But we are the paradise.
    Mr. Gaynor [continuing]. Into that argument.
    I go around the country to see how disaster recovery is 
progressing. When it came to the U.S. Virgin Islands, I had 
many discussions with the Governor and his staff, Adrienne 
Williams, director of recovery, about the speed of recovery. 
And I wasn't satisfied that it was going fast enough.
    And I have a deep bench when it comes to Federal 
Coordinating Officers. And one of my top FCOs is Bill Vogel. He 
was down there right after Maria.
    Ms. Plaskett. Sure.
    Mr. Gaynor. And we----
    Ms. Plaskett. And he is back now.
    Mr. Gaynor. He is back now.
    Ms. Plaskett. We are happy to have him there.
    Mr. Gaynor. And he is doing tremendous. And we made some 
really great headway. We were held up on education, trying to 
move education----
    Ms. Plaskett. Sure.
    Mr. Gaynor [continuing]. Schools, get kids back in schools. 
We moved that along in a big way. And again, it is about 
leadership, and it is about making sure we have the focus on 
it.
    Ms. Plaskett. So why don't we have our own Federal 
Coordinator, and not sit underneath Puerto Rico, if your bench 
is, in fact, deep?
    Mr. Gaynor. Because I think Mr. Amparo, who is in charge of 
recovery for Puerto Rico, is also trying to deal with the 
earthquake. And I think, you know, just again, we weren't 
expecting the earthquake.
    Ms. Plaskett. Sure.
    Mr. Gaynor. And so he is--I think he is stretching a lot of 
different ways, both in Maria recovery and now, as we proceed 
in the earthquake recovery. It is prudent, I think, a prudent 
leadership move, to move Mr. Vogel to USVI----
    Ms. Plaskett. And so he would be considered our Federal 
Coordinator, not underneath Puerto Rico, but reporting directly 
to Washington?
    Mr. Gaynor. Oh, no. I think there is an administrative 
report to Mr. Amparo for the Caribbean.
    Ms. Plaskett. So I guess my question is, if Mr. Amparo is 
caught up with Puerto Rico and its massive not only hurricane 
recovery and rebuilding, but also earthquake, why not have Bill 
Vogel be a Federal Coordinator for the Virgin Islands and 
report directly to you, or to whomever?
    Mr. Gaynor. I mean, I think, typically, the way it works 
across the country is the FCOs report to the regional 
administrator. So Mr. Von Essen out of region 2 in New York 
City, he is the one that coordinates all those things at the 
region. So that is, typically, the way we do it across the 
country.
    Ms. Plaskett. OK. Well, you talked about schools just a 
moment ago. And one of the issues that we have now with a 
school that--we had a mobile unit placed on the island of St. 
Croix, where I live, in Frederiksted. The Arthur Richards 
middle school, which was completely destroyed, has now a Sprung 
structure, a mobile unit.
    We also have an elementary school, Alexander Henderson 
Elementary School, there. There are massive odors coming from 
there, and the school has had to be shut down. I don't know if 
you are aware of this. The builder of that school, AECOM, has 
said that it is not under warranty anymore, and they have no 
responsibility, although the complaints were initially told to 
them well before the warranty was out.
    Can I get your support in having some discussion with AECOM 
to address this issue? Our children, our teachers, have had to 
leave the school for periods of time, days at a time, because 
of this. And it is very concerning.
    Mr. Gaynor. So I will talk to the Governor or Ms. Williams 
about their contract with AECOM.
    Ms. Plaskett. Great.
    Mr. Gaynor. And I will do that this week.
    Ms. Plaskett. Great. Thank you. I know the legislature, our 
local legislature, is very concerned about this.
    The other thing I wanted to talk about--I am almost running 
out of time--is with regard to fixed-cost estimates. You know 
that March 20th is the deadline when we have to have all of our 
fixed-cost estimates in place for all projects funded through 
the alternative procedures in the Virgin Islands. If the March 
20th deadline is not met, and is not extended by FEMA, the 
consequences may be significant. Projects in the Virgin Islands 
that are not funded through the alternative procedures program 
cannot take advantage of the unique assistance provided to the 
islands by Congress.
    That March 20th deadline is right around the corner. Do you 
know how many projects have been completed by the Virgin 
Islands, and how many are outstanding?
    Mr. Gaynor. I don't know. I try to stay out of that, you 
know, the----
    Ms. Plaskett. OK. Well, I can tell you that over 300 
projects have not been completed as yet. And that March 20th 
deadline is coming.
    I understand from the Virgin Islands that they are working 
on submitting a request for an extension. Can you explain to 
us, or understand what is causing the delay in this?
    And because of that, will an extension be granted?
    Mr. Gaynor. So I don't know of the specifics of the delay. 
You know, we believe that deadlines drive progress. And so we 
try to keep to those deadlines as much as possible. We try to 
work with our partners on USVI and other partners across the 
country on making sure that we drive recovery as hard as we 
can. I will look into what is the major holdup.
    Again, we work with our partners because this is, again, 
this is a partnership between the Federal Government, the 
Territory, and our other partners, making sure we move that 
recovery along as fast as possible. I will look into the issues 
and get back to----
    Ms. Plaskett. Well, I am sure you will be getting a letter 
from the Governor, because there is no way that we are going to 
meet that March 20th deadline when my understanding is that 
maybe we have a couple dozen projects, fixed-cost projects, 
done.
    I know that there is limited availability of local 
resources, unique structural changes that need to be done in 
the Virgin Islands. This is a new standard that we are giving 
to Virgin Islands and Puerto Rico to build as it should be, as 
opposed to as is.
    Mr. Gaynor. Right.
    Ms. Plaskett. But I do not want the Territory short-changed 
on this game changer for us, in terms of becoming more 
resilient through the funding that Congress has had. And it 
would be imperative for you to extend that deadline for us to 
meet these projects.
    Mr. Gaynor. Yes, ma'am.
    Ms. Plaskett. Thank you so much for your indulgence, Madam 
Chair. I yield back.
    Ms. Titus. Thank you.
    Mr. Administrator, I just have one last question before we 
close.
    I mentioned this in my opening statement, that there are 
supposed to be three of you, the Administrator and two Deputy 
Administrators. We don't have two Deputy Administrators, but 
you have recently created what is called a Chief Operating 
Officer. And if you look at the description of that position, 
it is the same as a Deputy Administrator. And we are just 
wondering if you did this to try to get around the Senate 
approval process, or what your thinking is.
    Mr. Gaynor. Yes, ma'am. No, I did not try to do this to get 
around the Senate.
    You know, for me, it is a practical solution. And the 
practical solution is picking the right people for the right 
job, for the right place, and try to keep the train moving in 
the right direction.
    We will work with the administration on identifying 
nominees. But until then, Ms. Comans, who is the Chief 
Operating Officer, will kind of drive the internal bus of FEMA, 
all the things that are important to people, IT solutions, 
procurement, all those things that are how we run an efficient 
business.
    And when the administration makes a nomination, and that 
person gets confirmed, that COO position will sunset. But for 
me, right now, it is about keeping stability, making sure I 
select the very best people that I have in FEMA. I have some 
wildly talented people, both politicals and career. And in this 
case, this is a decision to make sure that we keep moving 
forward on all things that are important to FEMA, and all the 
things that are important to the Nation.
    Ms. Titus. I appreciate that, but you are responsible for 
the continuity of Government. We just don't want you setting a 
bad example that now other agencies follow as an attempt to 
short-circuit the process.
    Mr. Gaynor. I try to set a good example every day.
    Ms. Titus. We appreciate that.
    Well, thank you very much for spending your morning with 
us. I thank you. You answered some questions, allayed some 
fears, and promised to coordinate with us both on individual 
projects and bigger reform issues like recruitment and 
retention. So thank you very much.
    Are there any further questions from members of the 
committee?
    Seeing none, I would like to thank you again for your 
testimony.
    And I would ask unanimous consent that the record of 
today's hearing remain open until such time as our witness 
provides answers to any questions that may be submitted in 
writing.
    I ask unanimous consent that the record also remain open 
for 15 days for any additional comments and information 
submitted by Members or the witness to be included in the 
record of today's hearing.
    Without objection, so ordered. If no other Members have 
anything to say, the subcommittee stands adjourned.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]

                                    
                          [all]
                          
                          
</pre></body></html>
